Audit Report




OIG-09-007
Audit of the Community Development Financial Institutions
Fund’s Fiscal Year 2008 Statement of Financial Position


November 17, 2008




Office of
Inspector General
Department of the Treasury
 The Community Development Financial Institutions Fund (CDFI) Performance and
Accountability Report (PAR) does not conform to the requirements of Section 508 of
                              the Rehabilitation Act;
          To obtain a Section 508 compliant copy of CDFI’s 2008 PAR,
                                   contact CDFI

                                    Also see:

            Web Accessibility and Section 508 Compliance policy page
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 17, 2008


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                   Michael Fitzgerald /s/
                                    Director, Financial Audits

            SUBJECT:                Audit of the Community Development Financial Institutions
                                    Fund’s Fiscal Year 2008 Statement of Financial Position


            I am pleased to transmit the attached audited Community Development Financial
            Institutions Fund (CDFI) statement of financial position for fiscal year 2008. Under
            a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of CDFI’s
            statement of financial position as of September 30, 2008. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the statement of financial position was fairly
            presented, in all material respects, in conformity with U.S. generally accepted
            accounting principles. However, KPMG LLP identified two significant deficiencies
            related to management communication and controls over awards monitoring, which
            were not considered material weaknesses. Further, KPMG LLP found no instances
            of reportable noncompliance with laws and regulations tested.
KPMG LLP also issued a management letter dated November 12, 2008, discussing
a matter involving internal control over financial reporting and its operation that
was identified during the audit but was not required to be included in the auditors’
reports. This letter will be transmitted separately.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on CDFI’s statement of financial position or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated November 12, 2008 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
Community Development Financial Institutions Fund
     United States Department of the Treasury


      Performance and Accountability Report
                    FY 2008
                                             Table of Contents


Message from the Director……… ………………………………………...…….…….……………...………..……….3
Community Development Financial Institutions Fund Overview………………...…………………...…....…..………5
       Program Discussion and Analysis……………………………………..….………….……………….……... 10
       Community Development Financial Institutions Program………………..………….………...………….…11
       New Markets Tax Credit Program ……………..……………………….….…………………….………….14
       Bank Enterprise Awards Program…………….………………………..……………… ……………………17
       Native Initiatives…………………………….………………………….….………………………………...18
Status of Financial Management……………….……………..….………….….…………………………...…………20
Independent Auditors’ Reports…………………...…….………….…..….………………..………….………....……28
Financial Statements and Notes……………….……..……...…………………..………..……….…..…….…………38


Appendices


  Appendix A: FY 2008 CDFI Fund Award and Allocation Activities
  Appendix B: Total CDFI Fund Awards From Inception
  Appendix C: Glossary of Terms




 CDFI Fund will provide alternative formats to the PAR in compliance with Section 508 as requested by disabled
         persons in accordance with Section 508 Subpart D “Information, Documentation, and Support.”




                                                            2
                               CDFI Fund FY 2008 Performance and Accountability Report
Message From The Director

I am pleased to present the U.S. Department of the Treasury Community Development Financial Institutions
(CDFI) Fund’s Performance and Accountability Report for Fiscal Year 2008. In these current economic
times, the vision of the CDFI Fund is more important than ever — an America in which all people have
access to affordable credit, capital, and financial services.

I am proud to report that over the last year, the CDFI Fund has been striving toward this vision and
achieving our mission by promoting access to capital and local economic growth through our four major
programs: the CDFI Program, the New Markets Tax Credit Program, the Bank Enterprise Award Program,
and our Native Initiatives. In FY 2008, the CDFI Fund awarded 240 organizations a total of more than $80
million in awards and $3.5 billion in tax credit allocations to serve distressed communities.

Across the nation, CDFIs are using the CDFI Fund’s awards to engage in a wide range of economic
development activities. These investments include small business lending, affordable home mortgage
products, financial education, home ownership counseling, and other innovative solutions to meet
community needs.

The CDFI Fund selected Port Angeles, Washington to hold the FY 2008 award announcement for the CDFI
Program. We choose this location to focus on the work that many CDFIs do to support the revitalization
and growth of the nation’s rural communities. Many of these CDFIs focus on a “triple bottom line” where
the success of their investments is measured not just by financial return but also the impact and
environmental benefits to the communities they serve.

Analyzing the important impact of all the CDFI Fund’s programs is an important goal. This year, the CDFI
Fund conducted its first research conference, exclusively devoted to the activities of CDFIs. We brought
together over 160 individuals from across the nation to hear speakers present on topics germane to the CDFI
industry, such as financing for affordable housing, including mortgage financing that offers alternatives to
subprime lending, in addition to business and commercial lending for retail services.

I want to highlight the CDFI Fund’s commitment to the Native Initiatives. This year I had the opportunity
to testify before the Senate Committee on Indian Affairs regarding the remarkable impact of Native CDFIs
combating predatory lending in Indian Country. It is a testament to the success of the Native American
CDFI Assistance (NACA) Program that the CDFI Fund was able to make a total of over $8 million of
awards this year to 29 organizations serving Native American or Alaskan Native communities.

This is a remarkable accomplishment given that in FY 2001 there were only 14 certified Native CDFIs and
today the CDFI Fund has certified almost 50 Native CDFIs with another 50 that are preparing for
certification. These Native organizations bring leadership and stability to their communities by building
assets and expanding financial opportunity for the people they serve.




                                                            3
                               CDFI Fund FY 2008 Performance and Accountability Report
In closing, I again want to recognize and thank our dedicated CDFI Fund staff, who passionately works
toward our important mission every day. Their work makes the CDFI Fund a better place — and by helping
to improve the lives of individuals living in distressed communities across this county, we are all making
America a better place.




Donna J. Gambrell
Director




                                                            4
                               CDFI Fund FY 2008 Performance and Accountability Report
Community Development Financial                                                       CDFIs, which in turn provide loans,
                                                                                      investments, financial services and
Institutions Fund                                                                     technical assistance to underserved
                                                                                      populations and low-income communities;
Overview                                                                         2) the NMTC Program, which provides tax
                                                                                    allocation authority to CDEs, enabling
The Community Development Financial Institutions                                    investors in these CDEs to claim tax
(CDFI) Fund was created for the purpose of promoting                                credits against their Federal income taxes.
economic and community development through                                          CDEs, in return, use the capital raised to
investment in and assistance to community                                           make      investments     in    low-income
development financial institutions (CDFIs). The CDFI                                communities;
Fund’s role in promoting community and economic
development was expanded in FY 2001 when the                                     3) the BEA Program, which provides cash
Secretary of the Treasury delegated to the CDFI Fund                                awards to banks for increasing their
the responsibility of administering the New Markets                                 investment in low-income communities
Tax Credit (NMTC) Program.                                                          and/or in CDFIs; and
Since its creation in 1994, the CDFI Fund has awarded                            4) Native Initiatives, which provides
$947 million to CDFIs, community development                                        Financial      Assistance,      Technical
organizations and financial institutions through the                                Assistance, and training to Native CDFIs
Community Development Financial Institutions                                        and other Native entities proposing to
(CDFI) Program, the Bank Enterprise Award (BEA)                                     become or create Native CDFIs.
Program, and Native Initiatives. In addition, the CDFI
Fund has allocated $19.5 billion in tax credit authority
to Community Development Entities (CDEs) through
                                                                       What is a CDFI?
the NMTC Program.
                                                                       Generally, CDFIs are community-based specialized
                                                                       financial institutions that serve low-income people or
Authorizing Legislation                                                work in economically distressed communities, often
                                                                       working in market niches that may be underserved by
The CDFI Fund was established as a bipartisan                          traditional financial institutions.     Only financial
initiative under the Riegle Community Development                      institutions certified by the CDFI Fund can receive
and Regulatory Improvement Act of 1994. The NMTC                       CDFI funding through the CDFI Program and Native
Program was authorized through the Community                           Initiatives. Certain other entities can receive awards
Renewal Tax Relief Act of 2000 and reauthorized as                     through Native Initiatives.
part of the Tax Relief and Health Care Act of 2006.
                                                                       CDFIs seek to provide a unique and wide range of
CDFI Fund’s Vision and Mission                                         financial products and services that may help their
                                                                       customers build wealth and achieve the goal of
The CDFI Fund’s vision is an America in which all                      participating in the ownership society. While the types
people have access to affordable credit, capital, and                  of products made available are generally similar to
financial services. Its mission is to expand the capacity              those provided by larger mainstream financial
of financial institutions to provide credit, capital, and              institutions such as mortgage financing for low-income
financial services to underserved populations and                      and first-time homebuyers, small business lending, and
economically distressed communities in the United                      lending for community facilities, CDFIs lend to and
States. The CDFI Fund achieves its purpose by                          make equity investments in markets not served by
promoting access to capital and local economic growth                  traditional financial institutions. CDFIs may offer rates
through:                                                               and terms that are more flexible than those provided by
                                                                       traditional financial institutions. CDFIs also seek to
        1) the CDFI Program, by making funding                         provide services that will help ensure that credit is used
           available to financial institutions that are                effectively, such as technical assistance to small
           certified or eligible to be certified as                    businesses, home buying and credit counseling to
                                                                       consumers. CDFIs include regulated institutions such
                                                                 5
                                    CDFI Fund FY 2008 Performance and Accountability Report
as community development banks, credit unions, and                     allocation to offer to its investors in exchange for
non-regulated institutions such as loan funds and                      equity investments in the CDE and/or its subsidiaries;
venture capital funds, among others.                                   or (2) receive loans or investments from other CDEs
                                                                       that have received a NMTC Allocation. CDEs must be
Certification of Community                                             certified to receive allocations of tax credits.
Development Financial Institutions and
                                                                       Growth in Number of Certified CDFIs and CDEs
Community Development Entities
CDFI certification is a designation conferred by the                         End of FY          CDFIs             CDEs
CDFI Fund. An organization must be a legal entity and                          1997             190
meet the following six statutory and regulatory criteria:                      1998             262                 -
                                                                               1999             334                 -
1. Has a primary mission of promoting community
   development;                                                                2000             415                 -
2. Serves principally an investment area or targeted                           2001             468                31
   population;                                                                 2002             625              541
3. Is an insured depository institution, or make loans or                      2003             694             1,184
   development investments as its predominant
   business activity;                                                          2004             728             1,585
4. Provides development services (such as technical                            2005             752             1,954
   assistance or counseling) in conjunction with its                           2006             762             2,294
   financing activity;                                                         2007             778             2,680
5. Maintains accountability to its target market; and
6. Is a non-governmental entity and cannot be                                  2008             808             3,434
   controlled by any governmental entities.
                                                                       CDEs are located in 49 states, the District of Columbia,
The certification is a requirement for accessing a                     Puerto Rico, and the U.S. Virgin Islands. CDFIs are
Financial Assistance award from the CDFI Fund                          located in all 50 states, the District of Columbia,
through the CDFI Program and the Native American                       Guam, Puerto Rico, and the U.S. Virgin Islands.
CDFI Assistance (NACA) Program, and certain
benefits through the BEA Program. As of September                      Community Development Financial Institutions
30, 2008, there were 808 Certified CDFIs.                              Program: Performance Goal: Build the capacity and
                                                                       coverage of CDFIs to provide credit, capital, and
A Community Development Entity (CDE) is a                              related services to otherwise underserved markets.
domestic corporation or partnership that is an
intermediary vehicle for the provision of loans,                       Through the CDFI Program, the CDFI Fund provides
investments, or financial counseling in low-income                     Financial Assistance in the form of grants, loans, and
communities through the NMTC Program. CDEs must                        equity investments to CDFIs, and Technical Assistance
demonstrate a primary mission of serving low-income                    grants to CDFIs and entities that plan to become
communities and low-income persons, and must                           CDFIs.
demonstrate that they are accountable (through
representation on a governing board or advisory board)                 •    Financial Assistance (FA) awards are in the form
to residents of low-income communities. CDEs are                            of grants, loans, and equity investments to CDFIs
certified as such by the CDFI Fund and are eligible to                      that have comprehensive business plans for
apply for tax credit allocations through the NMTC                           creating community development impact and that
Program.                                                                    demonstrate the ability to leverage private sector
                                                                            sources of capital.
Many CDEs create multiple subsidiary CDEs to own
specific assets or classes of assets, and thus the number              •    Technical Assistance (TA) awards are for CDFIs
of CDEs has grown to 3,434 as of September 30, 2008.                        and entities proposing to become CDFIs in order to
Benefits of being certified as a CDE include being able                     build their capacity to advance community
to: (1) apply to the CDFI Fund to receive a NMTC                            development and meet capital access needs in their
                                                                 6
                                    CDFI Fund FY 2008 Performance and Accountability Report
    target markets. Technical Assistance awards can                    investing. Through the BEA Program, the CDFI Fund
    also be accessed by larger and more established                    provides monetary awards to regulated banks and
    CDFIs to support their continued development.                      thrifts for increasing their investments and financial
                                                                       activities in economically distressed communities
New Markets Tax Credit Program: Performance                            (those with high poverty and unemployment) and/or
Goal: Attract private sector capital into low-income                   investments in CDFIs. The size of the award is a
communities through CDEs.                                              percentage of the increase in activities from one annual
                                                                       reporting period to the next.
The NMTC Program is intended to spur the investment
of new private sector capital into low-income areas                    Native Initiatives: Performance Goal: Build the
through CDEs, which in turn use the privately                          capacity and coverage of CDFIs and other institutions
managed investment vehicles to make loans and equity                   to provide credit, capital, and related services to
investments in businesses and real estate projects in                  Native Communities.
low-income communities.
                                                                       The CDFI Fund’s Native Initiatives are intended to
By making an equity investment in a CDE, individual                    assist entities in overcoming barriers that prevent
and corporate investors can receive a tax credit against               access to credit, capital and financial services in Native
their Federal income taxes worth 39 percent of the                     American, Alaskan Native, and Native Hawaiian
value of the amount invested in the CDE over 7 years.                  communities. Native Initiatives’ central program is the
                                                                       Native American CDFI Assistance (NACA) Program,
The NMTC Program was authorized under the                              which aims to increase the number and capacity of
Community Renewal Tax Relief Act of 2000. The                          existing or new CDFIs serving Native Communities. In
statute included $15 billion in allocation authority for               addition, Native Initiatives provides training to help
seven years. Under the Hurricane Katrina Gulf                          strengthen and develop Native CDFIs.
Opportunity (GO) Zone Act of 2005 an additional $1
billion in allocation authority was directed to the                    Performance Measures: This Performance and
rebuilding and renewal of the GO Zone. The NMTC                        Accountability Report includes a discussion of those
Program was reauthorized for one-year, through the                     performance measures the CDFI Fund considers
end of 2008, as part of H.R. 6111 the Tax Relief and                   the most significant.
Health Care Act of 2006. The provision allowed for an
additional $3.5 billion in tax allocations under the
                                                                       Allocation of CDFI Funding
program through 2008. Included in this provision was a
requirement that the Department prescribe regulations
to ensure that non-metropolitan (rural) counties receive               The CDFI Fund’s appropriations comprise program
a proportional allocation of Qualified Equity                          funds and administrative funds. Program funds are
Investments (QEIs).                                                    amounts that are used for program awards (such as
                                                                       grants, loans, equity investments, and training
Calendar Year 2002 was the first year in which                         contracts); administrative funds are amounts used to
applications for NMTC were submitted to the CDFI                       cover the costs to administer all programs, including
Fund and, as of the end of FY 2008, six allocation                     the NMTC Program. As noted above, the Secretary
rounds have been completed providing allocations of                    has delegated authority to the CDFI Fund to allocate
tax credit authority that will support, in the aggregate,              tax credits through the NMTC Program. As NMTCs
equity investments of $19.5 billion (including $1                      are not monetary awards, they are not reflected in the
billion for GO Zone allocations).                                      chart below. The NMTC funding as shown in the chart
                                                                       represents program administration costs.
Bank Enterprise Award Program: Performance
Goal: Increase FDIC-insured institutions’ investments                  Sources of CDFI Funding
in community development and economic revitalization
in distressed communities.                                             Congress appropriates CDFI Funds annually to the
                                                                       CDFI Fund; each appropriation can be used over two
The Bank Enterprise Award (BEA) Program                                fiscal years. Appropriations include fiscal year budget
recognizes the key role played by traditional financial                authority and, if any unobligated CDFI Funds from the
institutions in community development lending and
                                                                 7
                                    CDFI Fund FY 2008 Performance and Accountability Report
prior year carryover. The annual appropriation amount
includes borrowing authority to make loans.


                    Sources of CDFI Funding
                           (amounts in millions)

                                                                                                            Amounts Funded in FY 2008
                                         FY 2008         FY 2007
                                                                                                                  (amounts in millions)
                                                                                            Native       Administrative
Appropriations                              $94.0        $ 54.5                           Initiatives,   Costs, $14.6
Prior Year Amounts Deobligated,                                                               $9.2
 Used to Fund Current Year                                                                                                                  CDFI
                                                                                                                                          Program,
 Obligations                                   1.0           .4
                                                                                                                                           $54.2
Carryover from Prior Year                      1.9          1.5
Borrowing Authority Used                       2.5           .7                      BEA Program,
                                                                                        $20.6

Total Sources of CDFI Funds                 $99.4        $ 57.1

Note – above amounts do not include appropriations received pertaining to
credit subsidy reestimates.




Uses of CDFI Funding
During FY 2008, the CDFI Fund used CDFI Funding
of 98.6 million as follows:

                      Uses of CDFI Funding
                          (amounts in millions)

                                            FY 2008 FY 2007

Amounts Funded
 CDFI Program                                  $54.2          $27.4
 BEA Program                                    20.6           11.2
 Native Initiatives                              9.2            3.6
 Administrative Costs                           14.6           13.5

Total Amounts Funded                           $98.6           $55.7
Amounts Not Obligated                               .8            1.4

Total CDFI Funding Used                        $99.4           $57.1




                                                                            8
                                               CDFI Fund FY 2008 Performance and Accountability Report
ORGANIZATION OF THE CDFI FUND

The CDFI Fund’s organization structure consists of the Director, Chief Operating Officer, Deputy Director for Policy
and Programs, Chief Financial Officer, Manager for Public and Legislative Affairs, Legal Counsel, Chief Information
Officer (CIO), Manager for Compliance Monitoring & Evaluation, and various program and administrative support
offices. The organization chart of the CDFI Fund is shown below.



     COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND
                   ORGANIZATION CHART
                     SEPTEMBER 2008


                                                                            Director


                                                                                        Public & Legislative Affairs Manager



                                                     Legal Counsel




                                                                      Chief Operating Officer




   Chief Information Officer            Deputy Director for Policy & Programs   Compliance Monitoring & Evaluation Manager     Chief Financial Officer



                 Program Manager (NMTC)                         Program Manager (CDFI & Native)                                         Financial Manager


                   Depository Institutions Advisor
                                                                                                                                         Awards Manager




             Financial Strategies & Research Manager        Program Certification & Training Manager




                                                                                           9
                                                       CDFI Fund FY 2008 Performance and Accountability Report
Program
Discussion
and Analysis




                                     10
         CDFI Fund FY 2008 Performance and Accountability Report
Community Development Financial                                        long-standing goal of the CDFI Fund. By the end of
                                                                       FY 2008, the CDFI Fund had certified 808 CDFIs
Institutions Program                                                   serving both rural and urban areas in all states and the
                                                                       District of Columbia, Guam, Puerto Rico, and the
Through the Community Development Financial                            Virgin Islands.
Institutions (CDFI) Program, the CDFI Fund uses
federal resources to invest in and build the capacity of               Breakdown of Types of Certified CDFIs
CDFIs to serve low-income people and communities
lacking adequate access to affordable financial products               Twenty-eight      percent of certified CDFIs are
and services.     The CDFI Fund provides monetary                      headquartered in the five most populous states (New
awards for Financial Assistance (FA) and Technical                     York, Texas, North Carolina, Florida, and California)
Assistance (TA) grants through its CDFI Program.
CDFIs use FA awards to further goals such as:                          CDFIs include banks, credit unions, loan funds, and
                                                                       venture capital funds, with each providing a different
    •   Economic development (job creation, business                   mix of products geared to reach specific customers, as
        development, and commercial real estate                        follows:
        development);
                                                                            •    Community development banks are for-profit
    •   Affordable housing (housing development and                              corporations which provide capital to rebuild
        homeownership); and                                                      economically distressed communities through
                                                                                 targeted lending and investment;
    •   Community development financial services
        (provision of basic banking services to                             •    Community development credit unions are
        underserved communities and financial literacy                           non-profit cooperatives owned by members
        training).                                                               which promote ownership of assets and
                                                                                 savings and provide affordable credit and
Certified CDFIs                                                                  retail financial services to low-income people;

A certified CDFI is one that has been certified by the                      •    Community development loan funds (usually
CDFI Fund as meeting all of the following statutory and                          non-profits)    provide     financing       and
regulatory criteria:                                                             development      services    to     businesses,
                                                                                 organizations and individuals in low-income
1. Has a primary mission of promoting community                                  urban and rural areas and can be further
   development;                                                                  categorized based on the type of client served:
2. Serves principally an investment area or targeted                             micro-enterprise, small business, housing and
   population;                                                                   community service organizations; and
3. Is an insured depository institution, or makes loans
   or development investments as its predominant                            •    Community development         venture capital
   business activity;                                                            funds are both profit         and non-profit
4. Provides development services (such as technical                              organizations which provide   equity and debt-
   assistance or counseling) in conjunction with its                             with-equity features for       businesses in
   financing activity;                                                           distressed communities.
5. Maintains accountability to its target market; and
6. Is a non-governmental entity and cannot be                          CDFI Customers
   controlled by any governmental entities.
                                                                       CDFI customers consist of the following:
In addition to seeking certification to receive financial
and technical assistance from the CDFI Fund,
                                                                            •    Small business owners who provide
organizations pursue CDFI certification in order to
                                                                                 employment opportunities and needed services
leverage CDFI Funds from non-federal sources such as
                                                                                 to disadvantaged communities;
banks, foundations, and state and local governments.

The certification of organizations as CDFIs has been a
                                                                11
                                    CDFI Fund FY 2008 Performance and Accountability Report
    •   Affordable housing developers who construct                    by an average of 22:1.
        and rehabilitate homes in low-income
        communities;                                                   Under the FA and TA program, applicants can apply
                                                                       for FA only or combined FA and TA using the same
    •   Community facilities used to provide child                     application. Those applicants applying for FA must
        care, health care, education and social services               indicate which of two categories types they are
        in underserved communities;                                    applying under: Category 1 or Category II.

    •   Commercial real estate developers who                          FY 2008 Awards
        finance the acquisition, construction or
        rehabilitation of retail, office, industrial and
                                                                       In FY 2008, the CDFI Fund received 170 applications
        community facility space in low-income
                                                                       requesting approximately $200 million, including 52
        communities; and
                                                                       SECA applicants requesting $24.7 million and 118 Core
                                                                       applicants, seeking $175.6 million.
    •   Individuals who are provided affordable
        banking services including checking and                        The CDFI Fund awarded $52.2 million to 66
        savings accounts, alternatives to predatory                    organizations in FY2008, consisting of 22 SECA awards
        financial companies, and mortgages and other                   for $9 million and 44 Core for $43.2 million. In
        kinds of loans.                                                FY2007, the CDFI Fund awarded 49 organizations
                                                                       $25.7 million in FA/TA in both Category 1 (SECA) and
Financial Assistance                                                   Category II (Core) combined.

The CDFI Program consists of two components,                           The following bar graph shows the total amount of FA
Financial Assistance and Technical Assistance (FA                      funds requested and awarded since FY 2002. The CDFI
and TA). FA is by far the most subscribed, FA and TA                   Program has consistently received more applications
consist of two categories: Category 1 – Small and                      than it can fund. In FY2008, it received almost twice as
Emerging CDFI Assistance (SECA); and Category 2 –                      much funding that it had in FY2007, but it also received
Core. Through FA and TA, the CDFI Fund invests in                      more applications requesting more dollars. In the past
CDFIs that demonstrate the financial and managerial                    few years, the CDFI has capped awards at $1 million in
capacity to impact the communities they serve.                         an attempt to meet the heavy demand. By capping award
Applicants must be able to: 1) provide affordable and                  amounts, the CDFI Fund is able to make more awards.
appropriate financial products and services; 2) be a
                                                                                               CDFI Financial Assistance
viable financial institution; 3) be able to use CDFI
                                                                                            Relationship Betw een Am ounts
Fund awards effectively; and 4) have the ability to                                             Requested and Aw arded
leverage its award with non-federal funding.                                                      (am ounts in m illions)

Through the CDFI Program, the CDFI Fund invests in
                                                                        $200
CDFIs – that provide financing and related services to
                                                                                     $198                                                                $200
communities and populations lacking access to credit,                   $100                    $107
                                                                                                              $125
                                                                                                                       $160          $147      $138

capital and financial services. FA and TA awards are                               $42
                                                                                              $23
                                                                                                        $47
                                                                                                                     $33       $25                     $52
                                                                                                                                             $26
made in the form of equity investments, loans,                             $0
deposits, or grants, depending on applicant needs, and                           2002       2003       2004      2005         2006          2007      2008
must be matched by the applicant with funds of the                                                            Fiscal Year
same type from non-federal sources. FA and TA                                            Amount Aw arded               Amount Requested
awards enable CDFIs to leverage private capital for
affordable financial products and services in
economically distressed markets. CDFIs respond to this                 Technical Assistance
demand by providing loans, investments, training,
technical assistance, and basic financial services such as             The Technical Assistance (TA) component provides
checking or savings accounts. Based on data awardees                   grants to build the capacity of start-up and existing
are required to report to the CDFI Fund, it is estimated               CDFIs. Grant funds can be used for items like staff
that CDFIs leverage their FA awards with other dollars                 salaries, benefits, staff training, professional services,
                                                                12
                                    CDFI Fund FY 2008 Performance and Accountability Report
supplies and equipment. Applicants often request                                   its fiscal year end to report through CIIS. This time
funds to analyze their target market, develop lending                              allows the awardee to complete its annual audit and
policies and procedures, or to hire a loan officer.                                enables the CDFI Fund to verify reported information
                                                                                   against the audit.
More established CDFIs also use TA grants to build
their capacity to provide new products, serve current                              The performance information provided herein pertains to
markets in new ways, or enhance the efficiency of                                  each awardee’s 2007 fiscal year. It should also be noted
their operations; examples include upgrading computer                              that due to the length of time from notice of award
hardware and software.                                                             through award disbursement, award deployment by an
                                                                                   awardee, and receipt by the CDFI Fund of awardee
Changes to Technical Assistance in FY                                              impact information, the effect of the CDFI Fund’s
                                                                                   awards made during any given year is not known until
2008                                                                               quite some time later.
There were no substantive changes to the Technical
                                                                                   Results based on information entered into CIIS by 212
Assistance component in FY2008.
                                                                                   CDFI Program awardees are shown in the table below:

FY 2008 Awards                                                                                    Performance of CDFI Program
                                                                                                   Awardees During FY 2007 *
In FY 2008, the CDFI Fund received 55 applications
requesting $5.2 million in TA grants. Twenty - three                               1. # of Full Time Jobs Created or Maintained (32) 29,539
organizations received awards totaling about $2 million.                           2. # of Businesses Financed (70)                             9,109
This is slightly more than FY2007 in which 19
organizations received $1.5 million. The following                                 3. # of Commercial Real Estate Properties
                                                                                      Financed (36) **                                          1,087
graph shows the total amount of TA awards since 2002.
                                                                                   4. # of Affordable Housing Units Financed (25)               4,040
                Total Amo un t of TA Award s
                       (am ounts in millions)                                      5. # of Homebuyers Who Obtain Financing (44) ** 2,436
   $6                  $4.9                                                        6. # of Accounts Opened to the Unbanked (5)                    871
   $5
                                                                                   7. Dollars, in millions, Leveraged with Private
   $4                                                                                 Investments                                                $621
   $3                          $2.1    $1.9            $2.0
   $2    $0.8                                   $1.5                               8. # of Individuals Provided with Financial
   $1           $0.3                                                                  Literacy and Other Training (134)                        132,765
   $0                                                                              9. Individual Development Accounts (IDAs)
        2002 2003 2004 2005 2006 2007 2008                                            Provided by CDFIs (54):                                    1,553
                         Fiscal Year
                                                                                   10. Dollar amount, in millions, of IDAs (54):                 $1.93

CDFI Program Performance                                                           * Numbers in parentheses are the number of CDFI awardees
                                                                                     reporting on this particular measure.
CDFI Program awardees report their annual
performance to the CDFI Fund through the CDFI Fund’s                               ** Financing applies for the purposes of construction and
                                                                                     rehabilitation, respectively.
web-based reporting system, the Community Investment
Impact System (CIIS). Each awardee has 180 days from




                                                                            13
                                                CDFI Fund FY 2008 Performance and Accountability Report
New Markets Tax Credit Program                                                    under the Gulf Opportunity (GO) Zone Act of 2005 to
                                                                                  be used for the recovery and redevelopment of the
The New Markets Tax Credit (NMTC) Program permits                                 Hurricane Katrina GO Zone.
taxpayers to receive a credit against Federal income
taxes for making Qualified Equity Investments (QEIs) in                           Allocations are awarded annually through a
designated Community Development Entities (CDEs).                                 competitive process. To date, the CDFI Fund has
Substantially all of the qualified equity investment must                         completed six allocation rounds and has made 364
in turn be used by the CDE to provide investments in                              awards totaling $19.5 billion in allocation authority,
low-income communities.                                                           including $1 billion in special GO Zone allocation
                                                                                  authority under the 2006 and 2007 allocation round.
The credit provided to the investor totals 39 percent of
the cost of the investment and is claimed over a seven-
year credit allowance period. In each of the first three
years, the investor receives a credit equal to five
percent of the total amount paid for the stock or capital                            A mount of E quity to Be Ra ised from Tax Credit
interest at the time of purchase. For the final four                                          Complet ed Funding R ounds
years, the value of the credit is six percent annually.                                                  (Dolla rs in B illions)

Investors may not redeem their investments in CDEs                                             Ap plicatio ns                 Allocatio ns
prior to the conclusion of the seven-year period                                   Ro und     Num ber Amo unt               Num ber    Amo unt
                                                                                       1         34 5     $2 5.8                   66   $2 .5
To qualify as a CDE, an entity must be a domestic                                      2         27 1     $3 0.4                   63   $3 .5
corporation or partnership that: 1) has a mission of                                   3         20 8     $2 2.9                   41   $2 .0
serving, or providing investment capital for, low-                                     4         25 4     $2 8.3                   63   $4 .1
income communities or low-income persons; 2)                                           5         25 8     $2 7.9                   61   $3 .9
maintains accountability to residents of low-income                                    6         23 9     $2 1.3                   70   $3 .5
communities through their representation on a                                                  1 ,57 5   $15 6.6               364      $1 9.5
governing board of or advisory board to the entity; and
3) has been certified as a CDE by the CDFI Fund. As                               Demand for the tax credits has been high, as 1,575
of September 30, 2008, 3,434 organizations have been                              applicants have requested credits supporting over $156
certified as CDEs by the CDFI Fund, compared to                                   billion in equity investments – over eight times the
2,680 as of one year earlier.                                                     amount of allocation authority available for
                                                                                  distribution by the CDFI Fund. Through the first six
               Num ber of Certified Com m unity Developm ent                      allocation rounds, only 23% of applicants have been
                            Entities At Year End                                  selected to receive an award. The average tax credit
                                                       2,680 3,434                allocation award through the first six rounds was
       2,500                                   2,294                              approximately $53.6 million.
                                       1,953
       2,000                   1,639
                       1,194
       1,500                                                                      2008 NMTC Allocation Round
       1,000     558
         500
                                                                                  Summary
           -
                2002 2003 2004 2005 2006 2007 2008                                In October of 2008, the CDFI Fund announced that 70
                                 Fiscal Year                                      applicants had been awarded $3.5 billion in NMTC
                                                                                  allocation authority.         The 70 allocatees are
Results of First Six NMTC Allocation                                              headquartered in 29 different states and the District of
                                                                                  Columbia, but anticipate making awards in 46
Rounds                                                                            different states, as well as D.C and Puerto Rico.

Throughout the life of the NMTC Program, the CDFI                                 In the 2008 allocation round, the CDFI Fund
Fund is authorized to allocate to CDEs the authority to                           implemented a statutory requirement to ensure that
issue to their investors up to $19.5 billion in equity                            non-metropolitan (i.e., rural) counties receive a
against which NMTCs can be claimed, including $1                                  proportional allocation of Qualified Equity
billion of special allocation authority made available
                                                                           14
                                               CDFI Fund FY 2008 Performance and Accountability Report
Investments (QEIs). The CDFI Fund modified its                        NMTC Activities to Date
allocation review procedures to ensure that: 1) the
number of “Rural CDEs” (i.e., CDEs that focus at least                Allocation agreements have been executed with each
50% of their activities in non-metropolitan areas) were               of the 294 allocatees from the first five rounds. As of
proportionately represented in the awardee pool; and                  September 30, 2008, allocatees had reported raising
2) at least 20% of the total NMTC dollars would be                    QEIs totaling over $11.75 billion.
invested in invested in non-metropolitan areas. As a
result, 9 of the 70 awardees are rural CDEs; and the 70               Allocatees report QEI and QLICI activity to the CDFI
awardees will collectively invest a minimum of $722.7                 Fund through the Community Investment Impact
million dollars in non-metropolitan communities.                      System (CIIS). Allocatees that have raised QEIs are
                                                                      required to complete an annual Institution Level
These 70 allocatees have committed to achieving                       Report (ILR) in CIIS. Allocatees that have made
results above and beyond minimal program                              QLICIs are also required to submit an annual
requirements:                                                         Transaction Level Report (TLR) in CIIS.            An
                                                                      allocatee’s ILR, TLR, and audited financial statements
•   Sixty-three of the 70 of the allocatees indicated                 are due 180 days after the end of its fiscal year.
    that 100% of their investment dollars would be
    made either in the form of equity, equity                         All results in this section represent the allocatees’ data
    equivalent financing, or debt that is at least 50%                reported through their FY 2007. As shown in the table
    below market and/or is characterized by at least                  below, allocatees reported making $3.34 billion of
    five concessionary features, with the remaining 7                 loans and investments in QALICBs (Qualified Active
    allocatees committing to providing debt that is at                Low Income Community Businesses) in FY 2007, and
    least 25% below market and/or characterized by at                 a total of $8.96 billion of loans and investments in
    least three concessionary features. Such features                 QALICBs since the program’s inception. In FY 2007,
    include, among other things; subordinated debt,                   65% of the dollars invested were invested in “real
    reduced origination fees, higher than standard                    estate QALICBs (i.e., businesses that develop or lease
    loan-to-value ratios, lower than standard debt                    real property for use by others). It is projected that
    service coverage ratios, non-traditional collateral,              these loans and investments will result in the
    and longer than standard amortization periods.                    development or rehabilitation of 21.2 million square
                                                                      feet of commercial real estate, and the creation of
•   All 70 of the allocatees indicated that at least 85%              more than 80,000 construction jobs.
    of their activities will be provided in areas of
    higher economic distress (and/or areas targeted for               The remaining 35% of the dollars were invested in
    development by other government programs) than                    “non-real estate QALICBs” (i.e., operating businesses)
    are minimally required under NMTC Program                         in low-income communities.         Theses businesses
    rules, including 60 that indicated that 100% of                   created or maintain nearly 25,000 Full Time
    their activities would be provided in such areas.                 Equivalent (FTE) jobs in FY 2007 alone. Finally, the
                                                                      allocatees reported that 84% of the loans and
•   All 70 of the allocatees indicated that they would                investments they provided in FY 2007 had better rates
    invest more than the minimally required 85% of                    and terms than could be offered in the prevailing
    QEI dollars into Qualified Low-Income                             market. In FY 2007, allocatees also reported making
    Community Investments (QLICI), and 56 of the 70                   over $185 million in direct investments into other
    allocatees indicated that at least 97% of their QEI               CDEs, purchasing $56.5 million in loans from other
    dollars would be invested into qualified low-                     CDEs, and providing financial counseling and other
    income community investments.              In real                services to 3,798 businesses in low-income
    dollars, this means at least $449 million above and               communities.
    beyond what is minimally required by the NMTC
    Program will be invested in low-income
    communities.




                                                               15
                                   CDFI Fund FY 2008 Performance and Accountability Report
                                             Performance of NMTC Allocatees
                                                                                                        FY 2003 - FY 2007
Type of QLICI                                                           FY 2007 Performance
                                                                                                        Cumulative Performance*
QALICB: Real Estate
 1 Loans and investments supporting real estate development                      $2.189 billion                  $5.987 billion
   and rehabilitation in low-income communities.                             499 loans/investments          1,273 loans/investments
 2 Square footage of commercial real estate projected to be                 21.2 million square feet        68.1 million square feet
   developed and rehabilitated.
 3 Number of full-time equivalent (FTE) construction jobs                         80,959 FTEs                    210,033 FTEs
   projected to be created or maintained.
QALICB: Non-Real Estate
 1 Loans and investments supporting businesses operating in                      $1.153 billion                  $2.970 billion
   low-income communities.                                                   456 loans/investments          1,221 loans/investments
 2 Number of full-time equivalent (FTE) jobs projected to be                     24,941 FTEs                     45,690 FTEs
   created or maintained.
CDE
 1 Loans and investment in other CDEs.                                            $187.3 million                $276.5 million
                                                                              63 loans/investments           90 loans/investments
Loan Purchases
 1 Purchase of loans from CDEs.                                                   $56.5 million                  $154.3 million
FCOS
 1 Investment in Financial Counseling and Other Services                           $5.3 million                   $5.7 million
    (FCOS).
 2 Number of businesses receiving FCOS.                                     3,798 businesses served         5,081 businesses served

* Cumulative performance is based on data available as of September 5, 2008. Each year, allocatees are permitted to update data
reported in previous fiscal years to correct errors or provide newly available information. As a result, the cumulative figures may not
exactly add up to the FY03 thru FY07 annual performance figures reported by the CDFI Fund in this and previous Performance and
Accountability Reports.




                                                                  16
                                      CDFI Fund FY 2008 Performance and Accountability Report
Bank Enterprise Awards Program                                          cost capital and operating support to CDFIs, which has
                                                                        helped to create and sustain a network of CDFIs.
The Bank Enterprise Award (BEA) Program recognizes                      CDFIs serve as conduits for banks to partner with to
the key role played by traditional financial institutions in            better serve highly distressed neighborhoods.
community development lending and investing. It
provides incentives for regulated banks and thrifts to                  Eligibility
invest in CDFIs and to increase their lending and
financial services in economically distressed                           All depository institutions insured by the FDIC are
communities.       Providing monetary awards for                        eligible to apply for a BEA Program award. The BEA
community reinvestment leverages the CDFI Fund’s                        Program rewards actual increases in the dollar volume
dollars and puts more capital to work in distressed                     of Qualified Activities from a Baseline Period to a
communities throughout the nation. By statute, the BEA                  later Assessment Period. Qualified Activities for the
Program is highly targeted to areas with larger                         BEA Program are divided into three priority areas:
populations. In general, approximately 4,000 Census
Tracts qualify as “distressed communities” under the                    1. CDFI-Related Activities:         Equity investments
program.                                                                   (grants, stock purchases, purchases of partnership
                                                                           interests or limited liability company membership
BEA Program awards are based on a percentage of the                        interests); equity-like loans; and CDFI support
increase in the amount of Qualified Activities from a                      (loans, deposits or technical assistance) to certified
Baseline Period to a later Assessment Period (the                          CDFIs (referred to as CDFI Partners).
corresponding time the following year). Qualified
Activities consist primarily of financial assistance                    2. Distressed Community Financing Activities:
provided to certified CDFIs as well as the various loans                   Loans or investments for affordable home
made by financial institutions (for example, affordable                    mortgages, affordable housing development,
housing loans, small business loans, real estate                           education, home improvement, small businesses,
development loans), and services (such as access to                        and commercial real estate development in
automated teller machines and opening of savings                           economically      distressed    communities.
accounts).
                                                                        3. Service Activities: Deposits, financial services
Promoting CDFI Investments through                                         (such as check-cashing, money orders, or certified
the BEA Program                                                            checks), electronic transfer accounts (ETAs),
                                                                           individual development accounts (IDAs), “First
The BEA Program has a dual purpose. The first                              Accounts,” or community services provided to
priority is to increase banks' financial support of                        low- to moderate-income individuals or the
CDFIs in order to build CDFI self-sufficiency and                          institutions serving them.
capacity (referred to as CDFI Related Activities). The
second priority is to build the capacity of Federal                     FY 2008 BEA Program Awards
Deposit Insurance Corporation (FDIC) insured
depository institutions to expand their community                       For FY 2008, the CDFI Fund received 60 eligible
development lending and investments within severely                     applications requesting just over $49 million,
underserved areas (referred to as the Distressed                        compared to 71 applications requesting approximately
Community Financing Activities and Service                              $29 million in FY 2007. The CDFI Fund selected 52
Activities).                                                            FDIC-insured institutions to receive approximately
                                                                        $20 million in awards. The FY 2008 applicants are
By statute, the CDFI Fund must award applicants in                      headquartered in 19 states and the District of
the CDFI Related priority before making awards to                       Columbia, compared to the 18 states represented in the
applicants in the Financing Activities priority and                     prior year.
Service Activities priority.
                                                                        FY 2008 applicants provided $275.5 million in
The prospect of a BEA Program award encourages                          qualified loans or investments in distressed
banks to achieve this first priority by providing low                   communities, $66.4 million in qualified loans, deposits
                                                                 17

                                        CDFI Fund FY 2008 Performance and Accountability Report
and technical assistance to CDFIs, and $7.5 million in                                            1. Expanding training opportunities in community
qualified equity investments and grants to CDFIs.                                                    development finance for Native communities;
                                                                                                  2. Offering technical assistance to overcome barriers
FY 2008 Community Impact                                                                             to creating and sustaining Native CDFIs;
                                                                                                  3. Offering Technical and Financial Assistance
FY 2008 BEA awardees increased their qualified                                                       awards targeted to meet the needs of existing or
community development activities by $232 million                                                     proposed Native CDFIs;
over the prior year.                                                                              4. Encouraging mainstream financial institutions to
                                                                                                     increase their financial products and services in
•   $178.1 million increase in loans and investments                                                 Native communities;
    in distressed communities;                                                                    5. Supporting financial education activities to Native
•   $46.5 million increase in loans, deposits, and TA                                                Communities; and
    to CDFIs; and                                                                                 6. Facilitating networking and in-depth training
•   $7.5 million increase in equity investments or                                                   forums in community development finance.
    grants.
                                                                                                  The above objectives are achieved through two
The trend of investments in distressed communities and                                            principle strategies: 1) CDFI funding for the Native
investments in CDFIs by BEA awardees is shown in the                                              American CDFI Assistance (NACA) Program, which
Distribution of BEA Program Awards by Category                                                    increases the number and capacity of existing or new
chart.                                                                                            Native CDFIs; and 2) a NACA training initiative that
                                                                                                  fosters new Native CDFIs and strengthens the
            Distribution of BEA Program Awards By
                                                                                                  operational capacity of existing ones.
                 Category (amounts in millions)

    $20.0                                                                                         NACA Program FY 2008
    $18.0                                                             $5.6
    $16.0       $3.3
    $14.0                                                                                         The NACA Program helps proposed and existing
    $12.0                                             $1. 5                                       Native CDFIs build their capacity to address the
    $10.0
     $8.0
                                         $4.2
                                                                     $14. 4
                                                                                                  community development and capital needs of Native
               $13.7
     $6.0
                            $5. 9
                                                      $9. 7
                                                                                                  communities. The Program provides Financial
                                         $7.6
     $4.0
                            $3.9
                                                                                                  Assistance (FA) and Technical Assistance (TA) grants
     $2.0
     $0.0                                                                                         to Native CDFIs. In FY 2008, the CDFI Fund received
              2004        2005         2006          2007           2008
                                                                                                  45 NACA applications requesting more than $17
     Dis tress ed Com muni ty F inancing Servic es    CDF I Relat ed A c tiv it ies               million for both the FA and TA programs. In FY 2007,
                                                                                                  the CDFI Fund received 29 NACA applications
                                                                                                  requesting almost $11 million – a 64% increase in the
Native Initiatives                                                                                number of applications and the amount requested.

The CDFI Fund’s Native Initiatives originated from                                                Financial Assistance Grants
the findings of its “Report on the Native American
Lending Study” delivered to Congress in November                                                  Under the NACA Program, eligible Native CDFIs can
2001. The study evaluated access to credit, capital and                                           apply for FA awards (such as loans or grants
financial services in Native American, Alaska Native                                              depending on the source of matching CDFI Funds) to
and Native Hawaiian communities and identified                                                    support their financing activities.
barriers to provide such financing. To address these
barriers, Native Initiatives increases opportunities to                                           About $6.2 million was awarded to 12 organizations
access credit, capital and financial services by creating                                         requesting FA. In order to meet the demand for
or expanding Native CDFIs primarily serving Native                                                funding, the Fund capped the FA awards in FY 2008 at
communities, helping create Native CDFIs as well as                                               $500,000. As a result, the Fund was able to make more
to strengthen the operational capacity of existing ones.                                          FA awards. The Fund assumes demand will remain
                                                                                                  high as an increasing number of Native CDFIs put into
The Native Initiatives are based on six objectives:
                                                                                           18

                                                                  CDFI Fund FY 2008 Performance and Accountability Report
practice the CDFI Fund’s training, building their                   Training Initiatives
lending programs.
                                                                    Under the Native Initiatives program, the CDFI Fund
Technical Assistance Grants                                         engages a contractor to provide training and technical
                                                                    assistance to existing and emerging Native CDFIs.
TA grants help awardees build their capacity to                     Expanding Native Opportunities has three types of
provide financial services and products. Awardees can               training – 1) Native Communities Financing
use TA grants to: 1) acquire products or services such              Initiatives; 2); Native Financial Skills and Enterprise
as technology or staff and board training; 2) engage                Initiatives; and 3) Native Individual Development
consulting services to undertake activities like a                  Account Initiative. The Native Communities
market analysis or development of lending policies                  Financing Initiatives is accompanied with technical
and procedures; 3) pay for staff time to conduct                    assistance, allowing up to six days of on-site assistance
capacity-building activities like website development;              to participants.
and 4) general on-going operational activities such as
staff salary, rent and utilities.                                   The CDFI Fund has contracted with two organizations
                                                                    to provide a series of workshops and technical
In FY 2008, the CDFI Fund awarded about $2 million                  assistance to participants in the three training
to 17 awardees, which is similar to FY 2007. In FY                  initiatives.
2007, the CDFI Fund awarded $2.3 million to 19
organizations.




                                                             19

                                    CDFI Fund FY 2008 Performance and Accountability Report
Status of
Financial
Management




                                 20
        CDFI Fund FY 2008 Performance and Accountability Report
                                                                                    information that is primarily self-reported by program awardees and
         STATUS OF FINANCIAL                                                        allocatees. Although the CDFI Fund reviews a sample of the self-reported
                                                                                    information for reasonableness and consistency with other information, as
            MANAGEMENT                                                              was previously noted in FY 2007, this information has not been subject to
                                                                                    any third-party verification. In FY 2009, the CDFI Fund will undertake a
                                                                                    thorough review and assessment of the merit, appropriateness, and
                                                                                    verifiability of the data fields that awardees are required to complete
This section includes the assurance statement required                              annually through the Community Impact Information System.
under the Federal Managers’ Financial Integrity Act, a
summary of the results of the FY 2008 financial                                     Despite the absence of third-party verification, to my knowledge, there are
                                                                                    no known integrity problems with any of the CDFI Fund performance
statement audit, a summary of the financial                                         measures. Furthermore, I do not believe that the reliability of said
management initiatives of the Fund during FY 2008,                                  performance measure information constitutes a Material Weakness for the
and a discussion of the Fund’s financial position and                               CDFI Fund.

results of operations during the past fiscal year.                                  The analytical basis for the type of assurance being provided is knowledge
                                                                                    gained from daily operations, annual audits, management and internal
                                                                                    control letters provided by the auditors, and continuous review of internal
Management Assurances                                                               controls to ensure operational effectiveness.

                                                                                    It is significant to note that, in FY 2008, the CDFI Fund commenced a
         Department of the Treasury                                                 multi-facetted internal review of its administration, operations, policies,
                                                                                    procedures, and systems. The review included: (i) an audit by the
      Community Development Financial                                               Department’s Office of the Inspector General (OIG) of the CDFI Fund’s
              Institutions Fund                                                     post-award grant administration (currently in progress); (ii) an audit by the
                                                                                    OIG of the CDFI Fund’s information technology (IT) procurement contract
    Annual Assurance Statement for FY 2008                                          (currently in progress); (iii) an assessment by the Department’s Office of
                                                                                    the Chief Information Officer (OCIO) of the CDFI Fund’s IT systems and
During Fiscal Year (FY) 2008, the Community Development Financial                   needs; and (iv) a business process review of the CDFI Program and the
Institutions (CDFI) Fund, responsible for establishing and maintaining              Native American CDFI Assistance (NACA) Program, conducted by Booz
effective internal controls, has made a conscientious effort to meet the            Allen Hamilton, which has resulted in updated internal Standard Operating
internal control requirements of the Federal Managers’ Financial Integrity          Procedures from the setting of policy for a funding round through award
Act (FMFIA), the Federal Financial Management Improvement Act                       monitoring and close-out.
(FFMIA), Office of Management and Budget (OMB) Circular A-123, and
the Reports Consolidation Act of 2000. The CDFI Fund is operating in                In addition, the CDFI Fund entered into a reimbursable agreement with the
accordance with the procedures and standards prescribed by the                      Department for human services administration; further, the CDFI Fund’s
Comptroller General and Office of Management and Budget (OMB)                       travel administration services were transferred to the Department, and the
guidelines.                                                                         CDFI Fund began discussing a similar arrangement for the transfer of all
                                                                                    procurement services.
The systems of management control for the CDFI Fund are designed to
ensure that:                                                                        The following are Significant Deficiencies within the CDFI Fund in
                                                                                    FY 2008:
           (a)   Programs achieve their intended results;
           (b)   Resources are used consistent with the overall mission;            1.   Control of funds: During FY 2008, it was identified that there
           (c)   Programs and resources are free from waste, fraud, and                  was the potential to obligate funding carried over from the
                 mismanagement;                                                          prior year even though such funding had not yet been
           (d)   Laws and regulations are followed;                                      apportioned by the OMB. This deficiency was corrected in
           (e)   Controls are sufficient to minimize any improper and/or                 June, 2008 with the establishment of a process to reconcile all
                 erroneous payments;                                                     obligations of such funds with a schedule that reflects the
           (f)   Performance information is reliable;                                    amount of apportioned carryover funding available for
           (g)   System security is in substantial compliance with all                   obligation. In addition, the CDFI Fund’s Office of the Chief
                 relevant requirements;                                                  Financial Officer (OCFO) has developed a corrective action
           (h)   Continuity of operations planning in critical areas is                  plan that: (i) outlines the Chief Financial Officer’s and the
                 sufficient to reduce risk to reasonable levels; and                     Financial Manager’s oversight responsibilities related to the
           (i)   Financial management systems are in compliance with                     control of funds; (ii) describes the monitoring process
                 Federal financial systems standards (i.e., FMFIA Section 4              developed for ensuring reconciliation of funds availability; and
                 and FFMIA).                                                             (iii) includes other pertinent steps to ensure compliance with
                                                                                         the Anti-Deficiency Act.
For all CDFI Fund responsibilities, I provide herein reasonable assurance
that the above-listed management control objectives, taken as a whole,              2.   Remote access to the CDFI Fund’s network: The CDFI Fund
were achieved by the CDFI Fund during FY 2008, with the sole exception                   has not yet implemented two-factor authentication for remote
below.                                                                                   access to its network, thereby increasing risk of unauthorized
                                                                                         access. This deficiency will be corrected when Treasury
Specifically, this assurance is provided relative to Sections 2 and 4 of the             Network (TNet) is implemented (expected to occur in February
FMFIA, and I further assure that our financial management systems are in                 2009). Through TNet, remote users accessing the network will
substantial compliance with the requirements imposed by the FFMIA.                       be required to do so using two-factor authentication,
                                                                                         comprising a security token and a password to log in to the
The sole exception, albeit limited, relates to the reliability of certain                server at CDFI Fund.
performance information.      Responses to two of the CDFI Fund’s
performance measures (related to “jobs created” and “project leverage”),            3.   Information technology operations and security: At my
set forth in the Performance and Accountability Report, are compiled from                request, the Department’s OCIO conducted assessments of the
                                                                               21
                                                  CDFI Fund FY 2008 Performance and Accountability Report
     adequacy of the CDFI Fund’s IT operational procedures and                        2.   KPMG found that the CDFI Fund “should strive to continue to
     IT security controls, in June and July 2008, respectively. The                        increase communications within its management group.” In
     IT operational procedures assessment determined that the                              FY 2009, the CDFI Fund will continue to improve
     CDFI Fund’s grants management information system suffers                              communications within its management group in order to be
     from major design and technical shortcomings that strongly                            more effective and productive. In addition to continuing the
     limit its ability to support the organization’s core business                         many improvements successfully initiated by the Director in FY
     processes in an efficient, accurate, scalable, and cohesive                           2008, further improvements will include: (i) working with a
     manner. Among others, the Department’s OCIO made the                                  contractor (engaged in FY 2008) to provide mentoring,
     following key recommendations: (i) cease all IT development                           coaching and “360-degree” assessments for managers; (ii) bi-
     activities for new and/or improved IT systems until the optimal                       weekly meetings of an internal technology investment
     or desired architecture is better defined; (ii) establish a System                    committee; and (iii) the development and implementation by
     Engineering / Technical Assistance (SETA) contract to provide                         the Office of the Chief Operating Officer (OCFO) of an
     support services; and (iii) begin an effort to capture the CDFI                       improved budget planning and review process. In addition, the
     Fund’s enterprise architecture, both the baseline and the target                      CDFI Fund will improve its planning and management of the
     architectures, along with a transition strategy/sequence plan                         annual financial statement audit process, as noted.
     that emphasizes the systems and processes required to bridge
     the gap between current operational capabilities and those
     provided through the Grants Management Line of Business
     model. The CDFI Fund, at my direction, will adopt each of
     these recommendations, as well as the other recommendations
     contained in the report.
                                                                                                            Donna J. Gambrell
     The IT security controls assessment determined that: the CDFI                                              Director
     Fund’s IT systems suffer from a number of major design and
     technical shortcomings; IT security controls are not adequate;
     and Informational System Certification and Accreditation
     Plans are not consistent with Federal and Departmental
     security laws, policy, mandates and standards. Among others,
     the Department’s OCIO made the following key
     recommendations: (i) acquire a Chief Information Security
     Officer; (ii) establish a program for conducting Independent
     Validation and Verification for operational security activities;
     and (iii) address certain specified areas of security program
     deficiencies related to CDFI Fund IT systems. The CDFI
     Fund, at my direction, will adopt each of these
     recommendations, as well as the other recommendations
     contained in the report.

4.   Information technology procurement contract: At my request,
     the OIG is currently conducting an audit to determine whether
     contract actions and practices for IT development and support
     comply with the Federal Acquisition Regulation. Based on
     preliminary discussions with the OIG, it is likely that the audit
     report, when issued, will identify areas of significant concern
     and correction. The CDFI Fund will prepare a corrective
     action plan based on the final audit report (which is expected
     to be delivered in the first quarter of Fiscal Year 2009).

The following are Findings and Recommendations made by KPMG
in the course of its audit of the CDFI Fund’s FY 2008 statement of
financial position, and the CDFI Fund’s management responses:

1.   KPMG found that the CDFI Fund “has not consistently
     followed procedures developed to determine if awardees are in
     compliance with the terms of their assistance agreements when
     they fail to submit annual information, as required by the
     award agreements.” The CDFI Fund disagrees with the audit
     findings.     The CDFI Fund has consistently followed
     procedures set forth in the Compliance Monitoring and
     Reporting Policies and Procedures for all awardees.
     Documentation of follow-up contact with awardees is housed
     and maintained in the Report Monitoring System (RMS), by
     date and by analyst. Awardee responsibilities for complying
     with annual reporting requirements are clearly set forth in the
     assistance agreement signed by the awardee. The CDFI Fund
     agrees that additional resources are required to improve its
     compliance monitoring follow-up. To that end, in FY 2008, the
     CDFI Fund hired a new Compliance Monitoring and
     Evaluation Program Manager; the CDFI Fund is currently
     recruiting to fill additional staff positions and is developing
     significant improvements to the RMS, which will be embodied
     in the new CDFI Compliance and Monitoring System (CCMS).
                                                                               22
                                                      CDFI Fund FY 2008 Performance and Accountability Report
Description of the CDFI Fund’s Financial                             Cumulatively through 2007, CIIS was used by 479
Management System                                                    CDFIs and 168 CDEs to report institutional level data.
                                                                     Through 2007, a cumulative total of 296 organizations
The Fund contracts for accounting services under a                   submitted the transactional level details on over
franchise agreement with the Bureau of the Public                    85,000 distinct portfolios of loans and equity
Debt’s Administrative Resource Center (ARC) in                       investments. This is about an 85 percent increase in
Parkersburg, West Virginia. While the ARC maintains                  the total number of transactions reported in the
the accounting system relating to the Fund’s                         previous year, where there were close to 47,000
transactions, the Fund is responsible for generation of              cumulative transactions through 2006.
all source documents and the accuracy of all
accounting information.                                              In the past year, the Fund has used the CIIS data to
                                                                     analyze the characteristics of CDFIs (including their
The Fund’s financial management system includes the                  loan and investment portfolios, capital under
transactions maintained by ARC in the accounting                     management, operating revenues, and overall financial
system as well as records maintained and procedures                  strength) and assess the impact CDFIs are having in
performed by the Fund’s financial management staff in                the communities they serve. The second round of this
Washington, D.C. The Fund’s financial management                     analysis was published in December 2007 in “Three
staff is directly responsible for the administrative                 year trend analysis of CIIS Institutional level report
control of its funds, financial planning, budget                     data: FY 2003-2005.” FY 2008 marks the second time
formulation and execution, and review and analysis of                that the Fund made the CIIS data available to the
financial information.                                               public (within the parameters of all applicable Federal
                                                                     information protection, privacy and confidentiality
Results of FY 2008 Financial Statement                               laws). The Fund provided public-use CIIS data and
                                                                     financial support to twelve independent research teams
Audit                                                                as part of its CDFI Research Initiative. This research
                                                                     will culminate in a published volume of research
The FY 2008 audit of the Fund’s statement of financial               papers in the winter of 2008.
position resulted in an unqualified opinion. The
auditors reported two significant deficiencies, neither              Much of the performance information in The
of which were considered material weaknesses. The                    Community Development Financial Institutions,
auditors’ report can be found starting on page 28.                   Program Discussion and Analysis section was
                                                                     provided by an analysis of CIIS data.
FY 2008 Financial Management Initiatives
                                                                     Migration to Grants.gov for Paperless
In FY 2008, the financial management focus was on                    Processing of Applications
continuing to implement and enhance prior year
information technology initiatives.
                                                                     The Federal Financial Assistance Management
                                                                     Improvement Act (P.L. 106-107), and the President’s
Community Investment Impact System (CIIS)                            Management Agenda require all federal grant making
                                                                     agencies to migrate 100% of their electronic program
CIIS is a web-based system designed to collect an                    applications to the Grants.gov system administered by
Institution Level Report (ILR) and Transaction Level                 the Department of Health and Human Services by
Report (TLR) from CDFIs and CDEs. The CDFI                           September 30, 2007. During FY 2008, the Fund
CIIS data collected includes the organization’s profile,             posted all of its applications to Grants.gov, therefore
financial position, portfolio, community impacts,                    meeting this goal. The Fund realized cost savings
development services, other products and services, and               associated with the intake and processing of all grant
compliance measures. The CDE CIIS data collected                     applications. During FY 2008 all applications were
includes the organization’s profile, QEI distribution,               posted to Grants.gov using Adobe technology.
portfolio, loan purchases, and financial counseling and
other services.


                                                              23
                                     CDFI Fund FY 2008 Performance and Accountability Report
Migration to a Grants Management Line of                            principles generally accepted in the United States of
Business for Internal Application Processing                        America. Management is also responsible for the fair
                                                                    presentation of the Fund’s performance measures in
The Federal Financial Assistance Management                         accordance with the Office of Management and
Improvement Act and the President’s Management                      Budget requirements. The quality of the Fund’s
Agenda also require that all federal grant making                   internal control structure rests with management, as
agencies completely migrate their electronic grant                  does the responsibility for identification of and
processing systems to one of three federally selected               compliance with applicable laws and regulations.
centers of excellence. This initiative is known as the
“Grants Management Line of Business.” The CDFI                      Limitations of the Financial Statements
Fund has selected the Department of Health and
Human Services, Administration for Children and                     The financial statements report the financial position
Families, as our grant processor. An MOU has been                   and results of operations of the Community
signed between the organizations and a formal fit-gap               Development Financial Institutions Fund for the years
analysis by HHS/ACF is currently in process. The fit-               ended September 30, 2008 and 2007, pursuant to the
gap analysis results will be used to develop a detailed             requirements of 31 U.S.C. 3515(b).           While the
GMLoB transition plan. CDFI Fund has partnered                      statements have been prepared from the books and
with other grants programs within the U.S. Dept. of                 records of the Fund in conformity with accounting
Treasury (i.e., three IRS programs LITC, TCE, and                   principles generally accepted in the United States of
VITA) to observe cost savings and avoid duplication                 America, the statements are in addition to the financial
of efforts in addressing the gaps. CDFI Fund intends to             reports used to monitor and control budgetary
migrate the NACA and BEA programs to                                resources which are prepared from the same books and
GrantSolutions.gov by FY 2010, and migrate the                      records. The statements should be read with the
remaining programs (i.e., the CDFI and NMTC) in FY                  realization that they are for a component of the U.S.
2011. During the transition period, the Fund will                   Government, a sovereign entity, and that the payment
continue to run parallel systems for seamless                       of all liabilities other than for contracts can be
operations and there will be no disruption of services              abrogated by the sovereign entity.
to our customers. When this initiative is completed, it
is anticipated that there will be a substantial cost
savings to the Fund pertaining to the processing of
                                                                    Analysis of Financial Position and
grant applications.                                                 Results of Operations

Federal Funding Accountability and Transparency                                Summarized Financial Data
Act                                                                               (amounts in millions)
                                                                                                                            Increase /
The Federal Funding Accountability and Transparency                                                        FY 2008 FY 2007 (Decrease)
Act of 2006 require all grant making agencies fully                  Assets                                 $172.0 $144.2       $27.8
disclose all organizations that receive federal funds.               Liabilities                             $63.4  $56.2        $7.2
This information will be reported to the public on a                 Net Position                           $108.5  $88.0       $20.5
website maintained by the Office of Management and                   Revenue and Financing Sources           $72.2  $59.0       $13.2
Budget. The Fund submitted FY 2007 data to                           Expenses                                $72.7  $60.6       $12.1
Departmental Offices for posting to USASpend.gov.                    (Shortage) of Revenue and Financing
During FY 2008 the Fund will submit award data                         Financing Sources Under Expenses      ($0.5)   ($1.6)     $1.1
directly to USASpend.gov.



             Management Responsibilities

Fund management is responsible for the fair
presentation of information contained in the principal
financial statements in conformity with accounting
                                                             24
                                    CDFI Fund FY 2008 Performance and Accountability Report
                      September 30, 2008                                         2007. This decrease occurred for two reasons: 1) the
                       (amou nts in millio ns)                                   Fund’s annual budget appropriation for the BEA
                                                                                 Program peaked in FY 2001 with a $46 million
                                                                                 appropriation, decreasing to $20 million in FY 2008,
                               $3.1
                $32.7                                                            so there was a smaller amount of BEA Program
                                                                                 awards to make each year, and 2) the Fund has been
                                                     $90.4
                                                                                 able to disburse a significant amount of BEA awards
              $45.8                                                              over each of the past several years, since there is no
                                                                                 matching funds requirement for BEA awardees.
   Fund Balanc e With Treasury        Loans Receivable, Net
                                                                                 Debt
   Investment in Awardees , Net       Other
                                                                                 The decrease in debt of $0.5 million relates to
                                                                                 repayments of amounts borrowed from Treasury to
Assets                                                                           fund loans to awardees.         Principal repayments
Assets increased by $27.8 million during the year,                               collected from awardee loans during the year are used
primarily resulting from an increase in appropriations                           to repay the Treasury borrowings, and therefore
in FY 2007 to FY 2008.                                                           amounts collected and repaid to Treasury each year
                                                                                 will vary from year to year, as they are a function of
Fund Balance with Treasury                                                       awardee loan terms.
The Fund Balance with Treasury reflected a specific
change from the prior year, due to an increase of $39.6                          Net Position
million of appropriations for FY 07 to FY 08. As a                               Net position increased during the year by $20.5
results, CDFI has increased the number awards issued                             million. Net position will change during the year as a
during the current year and will disburse in the                                 result of the following: 1) the difference between
following fiscal year.                                                           appropriations received (net of appropriations
                                                                                 cancelled, rescinded and adjusted for credit subsidy re-
Loans Receivable                                                                 estimates) and appropriations used; 2) any adjustment
Loans receivable are increased when loan awards                                  of the Fund’s subsidy reestimate, and 3) the excess (or
(under the CDFI and Native Initiative programs) are                              shortage) of revenue and financing sources over
disbursed by the Fund and decreased for loan                                     (under) expenses. During FY 2008, appropriations
repayments and loan write-downs. During FY 2008,                                 received (net of amounts cancelled and rescinded)
loans decreased by $1.4 million, resulting from                                  were $90.8 million, and appropriated capital used was
repayments of $2.5 million and offset by additional                              $69.8 million.
loans disbursed during the year of $1.1 million. The
allowance for loan losses decreased by $0.3 million.                             During the year, the Fund adjusted its subsidy
The effect of these transactions resulted in a net                               reestimate downward by $1.9 million, which required
decrease in loans receivable of $1.1 million.                                    an additional borrowing from Treasury. As stated
                                                                                 above, the amount borrowed is used to pay back to the
Liabilities                                                                      Treasury Department the excess subsidy amounts
The increase in liabilities during the year of $7.3                              appropriated in prior years.     This $1.9 million
million consisted of an increase in awards payable of                            repayment reduces net position.
$7.5 million and an increase other liabilities by $0.3
million, offset by a decrease in debt of $0.5 million.                           The shortage of net revenue and financial sources
                                                                                 under expenses contributed an additional $0.5 million
Awards Payable                                                                   of the decrease in net position (this amount is
Awards payable consists primarily of undisbursed                                 discussed below).
BEA awards (recorded as a liability at the time of
award).

Awards payable has decreased significantly over the
past several years, going from $64.7 million at the end
of FY 2001, to $13.3 million at the end of the FY
                                                                          25
                                                 CDFI Fund FY 2008 Performance and Accountability Report
Revenue and Financing Sources, Expenses, and
Shortage of Revenue and Financing Sources                                                             Award Expenses
Under Expenses                                                                                      (amounts in millions)


Revenue and Financing Sources                                                        $60.0
                                                                                                        $8.4
                Revenue and Financing Sources                                        $50.0                                     $18.6
                     (amounts in millions)                                           $40.0                     $10.3   $9.6

                                                                                     $30.0    $16.7
                        $71.9                     $72.2                                                $48.5
        $80                                                                          $20.0                                     $35.9
                                $59.8    $59.0                                                                 $33.3   $34.2
        $60    $51.3                                                                 $10.0    $20.3

        $40                                                                           $0.0
                                                                                             2004      2005 2006       2007    2008
                                                                                                           Fiscal Year
        $20
                                                                                               CDFI Program       BEA Program
         $0
               2004    2005     2006    2007     2008
                          Fiscal Year
                                                                            Administrative Expenses
The primary source of revenue and financing sources
for the Fund is the annual appropriation used to fund                       FY 2008 administrative expenses were $0.9 million
expenses (“appropriated capital used” as reflected in                       more than the prior year. The main reason for this
the statement of operations). Pursuant to Federal grant                     increase was due to increase in personnel costs during
accounting requirements, the amount of appropriated                         FY 2008.
funds recognized as revenue is, with certain
adjustments, equal to the amount of operating                               Bad Debt Expense
expenses for the year. Operating expenses for the year
excluding those paid for by others were $68.8 million.                      Bad debt expense is a function of the amount of loans
An explanation for the $11.7 million increase in                            receivable at year-end. The Fund’s allowance for bad
operating expenses from FY 2007 to FY 2008 is                               debts is equal to 25 percent of loans receivable. Loans
discussed in the Expenses section below.                                    receivable decreased during FY 2008 by $1.4 million,
                                                                            resulting in a decrease to the allowance for bad debts
Expenses                                                                    of $0.4 million (the amount of the allowance for bad
                                                                            debts is a function of the loan receivable balance).
The change in the Fund’s operating expenses during
FY 2008 and FY 2007 consisted of the following:                             Shortage of Revenue and Financing Sources Under
                                                                            Expenses
              Comparison of Operating Expenses
                                                                            As stated above, the amount of appropriated capital
              Fiscal Years 2008 and 2007
                                                                            used (the largest component of the Fund’s revenue) is,
                   (amounts in millions)
                                                                            with certain adjustments, equal to the amount of
                                 FY 2008 FY 2007 Difference                 operating expenses for the year. Accordingly, the
 Award Expenses                   $54.5          $43.8       $10.7          shortage of revenue and other financing sources over
                                                                            expenses (the Fund’s “net loss”) will consist of the
 Administrative Expenses          $15.2          $14.3       $0.9           amount by which expenses not covered by budgetary
 Bad Debt Expense                  ($0.4)        ($0.4)      $0.0           resources exceeds revenue and financial sources other
                                                                            than appropriated capital used.
 Total Operating Expenses         $69.3          $57.7       $11.6
                                                                            For FY 2008, expenses not covered by budgetary
                                                                            resources totaled $2.2 million, consisting of interest
Award Expenses                                                              expense on Treasury borrowings.
The award expenses during the year increased $10.7
million due to an increase in the annual appropriations                     Revenue and financial sources other than appropriated
for FY 07 to FY 08.                                                         capital used and imputed financing sources totaled
                                                                     26
                                            CDFI Fund FY 2008 Performance and Accountability Report
$1.7 million consisting of interest and dividends. The
excess of the $2.2 million of expenses not covered by
appropriations exceeds the $1.7 million of revenue and
financing sources other than appropriated capital by
$0.5 million, representing the shortage of revenue and
financing sources under expenses.




                                                             27
                                    CDFI Fund FY 2008 Performance and Accountability Report
Independent
Auditors’ Reports




                                  28
         CDFI Fund FY 2008 Performance and Accountability Report
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General, U. S Department of the Treasury, and the
Director, Community Development Financial Institutions Fund:

We have audited the accompanying statement of financial position of the U S Department of the Treasury’s
Community Development Financial Institutions Fund (the Fund) as of September 30, 2008. The statement
of financial position is the responsibility of the Fund’s management. Our responsibility is to express an
opinion on the statement of financial position based on our audit. We did not audit the related statements of
operations and changes in net position and the statement of cash flows for the year then ended and,
therefore, we do not express an opinion on those financial statements.

We conducted our audit of the Fund’s statement of financial position as of September 30, 2008, in
accordance with auditing standards generally accepted in the United States of America; the standards
applicable to financial audit contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. Those standards and OMB Bulletin No. 07-04 require that
we plan and perform the audit to obtain reasonable assurance about whether the Fund’s statement of
financial position is free of material misstatement. An audit includes consideration of internal control over
financial reporting as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the statement of financial position, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the overall
statement of financial position presentation. We believe that our audit provides a reasonable basis for our
opinion.

In our opinion, the statement of financial position referred to above presents fairly, in all material respects,
the financial position of the Fund as of September 30, 2008 in conformity with U.S. generally accepted
accounting principles.

We were also engaged to audit the accompanying statement of financial position of the Fund as of
September 30, 2007, and the related statements of operations, and changes in net position, and cash flows
for the year then ended (referred to herein as fiscal year 2007 financial statements).

We were unable to obtain appropriate representations from management of the Fund with respect to the
fiscal year 2007 financial statements, and it was impractical to extend our procedures to determine the
effect of the lack of representations on these financial statements. Accordingly, the scope of our work was
not sufficient to enable us to express, and we do not express, an opinion on the Fund’s fiscal year 2007
financial statements.




                                                                          29
                                  KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                  member firm of KPMG International, a Swiss cooperative.
The information in the Community Development Financial Institutions Fund Overview and Status of
Financial Management is presented for the purposes of additional analysis and is not a required part of the
financial statements. We have applied certain limited procedures, which consisted principally of inquiries
of management regarding the methods of measurement and presentation of this information. Certain
information presented in the Community Development Financial Institutions Fund Overview and Status of
Financial Management is based on fiscal year 2008 financial statements that we were not engaged to audit.
We did not audit this information and, accordingly, we express no opinion on it.

The information in the appendices is presented for purposes of additional analysis and is not required as
part of the financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 12,
2008, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, grant agreements, and other matters. The
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




November 12, 2008




                                                     30
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury, and the
Director, Community Development Financial Institutions Fund:

We have audited the statement of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (the Fund) as of September 30, 2008 and have issued our report
thereon dated November 12, 2008. We did not audit the related statements of operations and changes in net
position and the statement of cash flows for the year then ended and, therefore, we do not express an
opinion on those financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
statement of financial position is free of material misstatements.

The management of the Fund is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2008 audit, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of the Fund’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the statement of financial position. To achieve this purpose, we did not test all internal controls relevant
to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to express an opinion on the effectiveness of the Fund’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the Fund’s internal
control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Fund’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of Fund’s statement of financial position that is more than
inconsequential will not be prevented or detected by the Fund’s internal control. A material weakness is a
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the statement of financial position will not be prevented or
detected by the Fund’s internal control.




                                                                         31
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
We consider the control deficiencies, described in Exhibit I to be significant deficiencies in internal control
over financial reporting. However, we do not believe that these significant deficiencies are material
weaknesses.

The Fund’s response to the findings identified in our audit are presented in Exhibit I. We did not audit the
Fund’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the Fund in a separate letter
dated November 12, 2008.

This report is intended solely for the information and use of the Fund’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 12, 2008




                                                      32
                                                                                                  Exhibit I

                         Community Development Financial Institutions Fund

                              Significant Deficiencies and Recommendations




Improvements needed in management communication (Repeat Condition)

Members of management of CDFI continue to have difficulty communicating with each other. Significant
information is not shared with other members of management. While performing the audit, we
received information from the CFO's office which was contradicted by the Director's office. In other
situations, important information was not communicated to all members of management on a timely basis
(i.e. the departure of the financial manager and the plans for addressing that; the change in Phase 2 of the
Booz Allen business process review and the reason for the change was not effectively communicated; and
the change in the signature process for approval of Notice of Awards was not fully understood by the
CFO's Office). There have been a number of changes implemented at the Fund to increase communications
during the year; however, these changes have not been effective in resolving the communication issues.

The recommendations of the Booz Allen Hamilton Business Process Review were implemented however;
they did not solve CDFI’s management communication issues. Past experiences and the inability to work
as a cohesive team has resulted in inhibited communications among members of CDFI management.
Members of management also represented that communications have not improved during 2008, despite
the various improvement efforts.

During our audit, we observed numerous instances of ineffective interdivisional communication. Frequent
misunderstandings and incohesiveness among divisions led to a negative impact on efficiencies of
processes, contributed to low employee morale and frustration, and ultimately impacted the quality of work
performed.

Recommendations

    1. We recommend that CDFI continue to hold Communications and/or Team Building Training and
       weekly management group meetings, that convey information to all members of management,
       identify concerns at an early stage, enable management to develop teams to resolve the concerns,
       and present a forum for management to report back to the entire management group on issue
       resolution.

    2. We recommend that the performance evaluation for each member of the senior management group
       includes an element for communication effectiveness.

    3. We recommend the Fund review the physical location of senior management in the Office of the
       Chief Financial Officer. All members of senior management should be located on the same floor.
       This relocation may increase the interaction and communication in the management group.

    4. We recommend that CDFI schedule team briefing meetings that emphasize downward, upward,
       and lateral communications throughout the Fund. This will enable clarity and consistency of
       direction and information from senior management and among senior management. The Fund
       should emphasize the “quality” of the meetings, not “quantity” to achieve effective


                                                    33
        communications. The Fund should develop a meeting environment that facilitates debate and
        discussion and not one-sided dialogue.

    5. We recommend the Fund re-evaluate the roles and responsibilities of each of the offices to ensure
       the functions are in line with the responsibilities of that office.


Management’s Response

In FY 2009, the CDFI Fund will continue to improve communications within its management group in
order to be more effective and productive. In addition to continuing the many improvements successfully
initiated by the Director in FY 2008, further improvements will include:

    o   working with a contractor (engaged in FY 2008) to provide mentoring, coaching and "360-degree"
        assessments for managers;

    o   bi-weekly meetings of an internal technology investment committee; and

    o   the development / implementation by the Office of the Chief Operating Officer (OCFO) of an
        improved budget planning and review process.

In addition, the CDFI Fund will improve its planning and management of the annual financial statement
audit process.

Improvements needed in controls over awards monitoring (Repeat Condition)

The Fund has not consistently followed established written policies and procedures to determine if
awardees are in compliance with the terms and conditions of their assistance agreements. CDFI does not
adequately monitor the receipt of the annual information submitted by the awardees nor does the Fund
consistently follow up and document issues identified by the financial reports received. Awardees are
required to submit financial statement audit conducted in accordance with OMB Circular A-133, Audits of
States, Local Governments, and Non-Profit Organizations. However, the Fund could not verify that all
awardees that are required to submit A-133 reports have done so. In addition, the Compliance and
Monitoring Evaluation division could not provide a report to identify the status of the most recent single
audit reporting requirements for awardees and the actions taken for non-compliance with the terms and
conditions of their assistance agreements as of September 30, 2008. CDFI does not follow its policies and
procedures to ensure that the grantees are complying with their assistance agreements. Additionally, the
Fund has not allocated sufficient resources to timely identify, resolve, and close all audit reports that
identify questioned costs or other findings.. This could result in awardees’ using Federal funds
inconsistently with the objectives of the grant; programs and resources may not be protected from waste,
fraud, and mismanagement; laws and regulations may not be followed; excess funds not spent may not be
returned; and reliable and timely information may not be obtained, maintained, reported, or used for
decision-making.

Recommendations

    1. We recommend the Fund obtain the necessary resources to improve its compliance and monitoring
       procedures and implement a process that identifies specific awardee responsibilities for complying
       with these reporting requirements and the specific follow-up procedures that should be performed
       and documented.



                                                   34
    2. We recommend the Fund implement a policy to require that personnel search the Federal Audit
       Clearinghouse to identify awardees that have submitted A-133 reports. This will increase oversight
       of awardees and verify the information being reported by awardees.


Management’s Response

The CDFI Fund disagrees with the audit findings. The CDFI Fund has consistently followed procedures set
forth in the Compliance Monitoring and Reporting Policies and Procedures for all awardees.
Documentation of follow-up contact with awardees is housed and maintained in the Report Monitoring
System (RMS), by date and by analyst. Awardee responsibilities for complying with annual reporting
requirements are clearly set forth in the assistance agreement signed by the awardee. The CDFI Fund
agrees that additional resources are required to improve its compliance monitoring follow-up. To that end,
in FY 2008, the CDFI Fund hired a new Compliance Monitoring and Evaluation Program Manager; the
CDFI Fund is currently recruiting to fill additional staff positions and is developing significant
improvements to the RMS, which will be embodied in the new CDFI Compliance and Monitoring System
(CCMS).

KPMG Conclusion

CDFI did not consistently follow their policies and procedures for ensuring that grantees complied with
their assistance agreements. Accordingly, we reaffirm our finding and recommendations.




                                                   35
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U. S. Department of the Treasury, and the
Director, Community Development Financial Institutions Fund:

We have audited the statement of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (the Fund) as of September 30, 2008, and have issued our report
thereon dated November 12, 2008. The statement of financial position is the responsibility of the Fund’s
management. Our responsibility is to express an opinion on the statement of financial position based on our
audit. We did not audit the related statements of operations and changes in net position and the statement of
cash flows for the year then ended and, therefore, we do not express an opinion on those financial
statements.

We were also engaged to audit the accompanying statement of financial position of the Fund as of
September 30, 2007, and the related statements of operations, and changes in net position, and cash flows
for the year then ended (referred to herein as fiscal year 2007 financial statements).

We were unable to obtain appropriate representations from management of the Fund with respect to the
fiscal year 2007 financial statements, and it was impractical to extend our procedures to determine the
effect of the lack of representations on these financial statements. Accordingly, the scope of our work was
not sufficient to enable us to express, and we do not express, an opinion on the Fund’s fiscal year 2007
financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
statement of financial position is free of material misstatement.

The management of the Fund is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the Fund. As part of obtaining reasonable assurance about whether the Fund’s
statement of financial position is free of material misstatement, we performed tests of the Fund’s
compliance with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance
with which could have a direct and material effect on the determination of the statement of financial
position amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04. We limited our tests of compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws, regulations, contracts, and grant agreements applicable to the Fund.
However, providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.




                                                                         36
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Fund’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 12, 2008




                                                  37
Financial
Statements and Notes




                                  38
         CDFI Fund FY 2008 Performance and Accountability Report
                            Community Development Financial Institutions Fund
                                    Statements of Financial Position
                                 As of September 30, 2008 and 2007

                                                                                                           (Unaudited)
                                                                                        2008                  2007
                                     Assets

  Current assets:
   Fund Balance with Treasury (Note 2)                                         $         90,410,166            59,535,767
   Advances and prepayments                                                                 749,272               781,050
   Loans receivable, net of allowance for bad
      debts of $1,457,693 in 2008 and $772,800 in 2007 (Note 4)                            4,373,080            2,318,400
   Investments (Note 3)                                                                      750,000               75,000
   Interest receivable                                                                       339,022              584,834
   Other receivables                                                                               -               18,506
                 Total current assets                                                    96,621,540            63,313,557

  Long-term assets:
    Loans receivable, net of allowance for bad
      debts of $13,821,048 in 2008 and $14,866,789 in 2007 (Note 4)                      41,463,144            44,600,366
    Investments, net of fair value adjustments of
      $5,922,221 in 2008 and $5,406,326 in 2007 (Note 3)                                 31,971,582            34,161,359
    Internal-use software, net of accumulated amortization of
      $2,884,379 in 2008 and $2,260,486 in 2007                                            1,482,874            2,106,768
    Internal-use software in development                                                     436,050                    -
                 Total long-term assets                                                  75,353,650            80,868,493

                 Total assets                                                  $        171,975,190           144,182,050

                      Liabilities and Net Position

  Current liabilities:
   Accounts payable                                                            $            536,479               350,651
   Awards payable                                                                        15,176,353             9,325,573
   Accrued payroll                                                                          317,927               239,704
   Accrued annual leave                                                                     377,724               309,834
   Debt (Note 5)                                                                            428,530             1,318,162
                 Total current liabilities                                               16,837,013            11,543,924

  Long-term liabilities:
    Debt (Note 5)                                                                        40,974,332            40,583,688
    Awards Payable                                                                        5,623,842             4,021,591
                 Total long-term liabilities                                             46,598,174            44,605,279

                 Total liabilities                                                       63,435,187            56,149,203

  Commitments (Note 6)

  Net position (Note 7)                                                                 108,540,003            88,032,847

                 Total liabilities and net position                            $        171,975,190           144,182,050



The accompanying notes are an integral part of these statements
                                                                          39
                                                 CDFI Fund FY 2008 Performance and Accountability Report
                     Community Development Financial Institutions Fund
                    Statements of Operations and Changes in Net Position
                          Years Ended September 30, 2008 and 2007
                                        (Unaudited)


                                                                               2008                  2007

Revenue and financing sources:
 Appropriated capital used                                            $        69,790,071            56,558,832
 Imputed financing sources- expenses paid by others (Note 9)                      607,683               530,728
 Interest, non-federal                                                          1,240,463             1,343,199
 Interest, federal                                                                176,738               128,981
 Dividends                                                                        349,042               251,722
 Realized gain on disposition of investments                                            -               154,118

   Total revenue and financing sources                                         72,163,997            58,967,580

Expenses:
 CDFI grants                                                                   35,884,231            34,248,315
 BEA grants                                                                    18,647,976             9,620,922
 Administrative (Note 11)                                                      14,615,331            13,781,097
 Bad debt expense                                                                (360,848)             (437,299)
 Administrative expenses paid by others (Note 9)                                  607,683               530,728

   Total operating expenses                                                    69,394,373            57,743,763

  Treasury borrowing interest                                                    2,222,201             2,344,795
  Unrealized loss on investments                                                 1,089,776               509,106

   Total expenses                                                              72,706,350            60,597,664

Shortage of revenue and financing sources
 under expenses                                                       $           (542,353)           (1,630,084)

Changes in Net Position:

Net position, beginning of year                                       $        88,032,847            94,539,675
Shortage of revenue and financing sources
  under expenses                                                                 (542,353)            (1,630,084)
Other changes (Note 8)                                                         21,049,509             (4,876,744)

   Net position, end of year                                          $       108,540,003            88,032,847



The accompanying notes are an integral part of these statements




                                                                            40
                                                   CDFI Fund FY 2008 Performance and Accountability Report
                          Community Development Financial Institutions Fund
                                     Statements of Cash Flows
                             Years Ended September 30, 2008 and 2007
                                           (Unaudited)

                                                                                                2008               2007
Cash flows from operating activities:
  Shortage of revenue and financing sources
   under expenses                                                                     $               (542,353)     (1,630,084)
  Adjustments affecting cash flow:
   Appropriated capital used                                                                    (69,790,071)       (56,558,832)
   Realized gain on disposition of investments                                                          -             (154,118)
   Unrealized loss on investments                                                                 1,089,776            509,106
   Proceeds from disposition of investments                                                         425,000            219,902
   Amortization expense                                                                             623,893            623,893
   Decrease in advances and prepayments                                                              31,778            270,673
   Increase in Investments in awardees                                                                  -           (2,075,000)
   Decrease (increase) in interest receivable                                                       245,812            (67,851)
   Decrease (increase) in other receivable                                                           18,506            (18,506)
   Increase in allowance for bad debts                                                             (360,848)          (437,299)
   Increase (decrease) in accounts payable and accrued payroll                                      264,051           (152,330)
   Increase in awards payable                                                                     7,453,030          7,890,218
   Increase in accrued annual leave                                                                  67,890             42,430

                Net cash used by operating activities                                           (60,473,536)        (3,452,669)

Cash flows from investing activities:
    Acquisition of internal-use software                                                               (436,050)          -
    Loans disbursed                                                                                  (1,096,906)     (995,000)
    Collection of loan principal                                                                      2,540,298     4,537,669

                Net cash provided by investing activities                                            1,007,342      3,542,669

Cash flows from financing activities:
  Appropriations received                                                                        95,078,368        55,454,434
  Appropriations cancelled                                                                       (2,340,417)       (3,456,953)
  Borrowings from Treasury                                                                        2,864,834         1,390,524
  Subsidy repayments to Treasury                                                                 (1,898,370)         (315,393)
  Loan payments to Treasury                                                                      (3,363,822)       (5,000,523)

                Net cash provided by financing activities                                        90,340,593        48,072,089

                Net change in Fund balance with Treasury                                         30,874,399            76,960

Fund balance with Treasury, beginning of year                                                    59,535,767        59,458,807

Fund balance with Treasury, end of year                                               $          90,410,166        59,535,767



The accompanying notes are an integral part of these statements



                                                                    41
                                           CDFI Fund FY 2008 Performance and Accountability Report
                     COMMUNITY DEVELOPMENT FINANCIAL INSTTITUTIONS FUND
                                                 Notes to Financial Statements

                                                 September 30, 2008 and 2007



(1)     Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The Community Development Financial Institutions Fund (the Fund) was created as a bipartisan initiative
            in the Riegle Community Development and Regulatory Improvement Act of 1994 (Public Law No. 103-
            325). The Fund was placed in the Department of the Treasury and began operations in July 1995.

            The Fund operates various programs aimed at expanding the availability of credit, investment capital, and
            financial and other services in distressed urban, rural, and Native American communities. The Fund is
            intended to help create a national network of financial institutions dedicated to community development
            that leverages private resources (financial and human) to address community development needs.

            The major programs operated by the Fund are the Community Development Financial Institutions
            Program (consisting of a Financial Assistance and Technical Assistance Component), the New Markets
            Tax Credit Program, the Bank Enterprise Awards Program, and Native Initiatives.

            The Community Development Financial Institutions (CDFI) Program provides financial and technical
            assistance awards to certified community development financial institutions (CDFIs) which in turn
            provide services to create community development impact in underserved markets. Financial assistance
            awards take the form of grants, direct loans, and equity investments. Technical Assistance grants provide
            assistance to start-up and early-stage CDFIs and entities planning to become CDFIs.

            The Fund implemented the New Markets Tax Credit (NMTC) Program during fiscal year 2002. Under
            this program, the Fund provides an allocation of tax credits to Community Development Entities (CDEs),
            which use these credits to attract private sector investment. Proceeds from these investments are used for
            community development purposes. Unlike the Fund’s grant programs, the allocation of tax credits to
            CDEs has no effect on the financial statements of the Fund.

            The Bank Enterprise Awards (BEA) Program provides incentives to insured depository institutions
            (banks and thrifts) to invest in CDFIs and to increase their lending and financial services in distressed
            communities. Program participants are selected based on projected achievements. The awards are
            disbursed only after the activities have been implemented successfully, to ensure that only completed
            activities are recognized and that the Fund’s limited dollars are effectively leveraged with private capital.

            Through Native Initiatives, the CDFI Fund provides grants to help create CDFI’s and to build the
            capacity of existing Native CDFIs that serve primarily Native American, Alaska Native, and Native
            Hawaiian communities.

      (b)   Basis of Presentation
            The American Institute of Certified Public Accountants (AICPA) has designated the Federal Accounting
            Standards Advisory Board (FASAB) as the standards-setting body for financial statements of federal
            governmental entities, with respect to the establishment of accounting principles generally accepted in the
            United States of America. FASAB has indicated that financial statements prepared based upon
            accounting standards published by the FASB may also be regarded as in accordance with generally
                                                              42
                                     CDFI Fund FY 2008 Performance and Accountability Report
      accepted accounting principles for those federal entities, such as the Fund, that have issued financial
      statements based upon FASB accounting standards in the past. Accordingly, consistent with historical
      reporting, the Fund financial statements are presented in accordance with accounting standards published
      by the FASB.

      Certain amounts in the prior year financial statements have been reclassified to conform to the current
      year presentation.

(c)   Fund Balance with Treasury
      The Fund does not maintain cash in commercial bank accounts. The U.S. Department of the Treasury
      (Treasury Department) processes cash receipts and disbursements. Fund Balance with Treasury is
      composed primarily of appropriated and borrowed funds (financing and program accounts) that are
      available to pay liabilities and finance authorized award and purchase commitments.

(d)   Fair Value of Financial Instruments
      The fair value of the Fund’s financial instruments was determined as discussed below:

      1) Fund Balance with Treasury

        The carrying amount approximates fair value for Fund balance with Treasury because of the liquid
        nature of the funds with Treasury.

      2) Loans Receivable and Debt

        The carrying amount of loans receivable and debt approximates fair value because the related interest
        rates approximate current rates for similar loans and debt.

      3) Investments

         None of Fund’s investments are in publicly traded entities for which a share price can be readily
         obtained; accordingly, the Fund estimated the fair value of investments as follows:

             Non-voting equity securities and limited partnership interest – Several factors were considered in
              estimating fair value for these investments, including, the cost of the investment, developments
              since the acquisition of the investment, the financial condition and operating results of the
              investee per their financial statements, the long-term potential of the business, recent share or unit
              prices paid, and other factors generally pertinent to the valuation of investments.

              The Fund, in making its evaluation, has relied on financial data of awardees and, in many
              instances, on estimates by the management of the awardees as to the potential effect of future
              developments.

             Convertible debt securities – Fair values were estimated using the same methodology as used for
              non-voting equity securities described above, based on the assumption that the securities were
              converted into stock.

             Secondary capital securities – These investments have terms similar to loans, and accordingly fair
              values were estimated by discounting future projected cash flows at the Treasury rate of securities
              with similar maturities.

             Certificates of deposit – The carrying amount approximates fair value because of the liquid nature
              of the investments.


                                                        43
                               CDFI Fund FY 2008 Performance and Accountability Report
      4) Advances and Prepayments, Interest Receivable, Other Receivables, and Other Liabilities

          The carrying amount of advances and prepayments, interest receivable, other receivables, and other
          liabilities approximate fair value as they represent the amounts expected to be realized or paid.

(e)   Loans Receivable
      The Fund provides assistance by making direct loans to certain CDFI Program awardees. Loans are
      reported as receivables when disbursed, reduced by a 25% default allowance. The Office of Management
      and Budget negotiated a 25% default allowance with the Fund to estimate future losses if adequate
      historical information is not available. Historical information is not available, and will not be available
      for some time due to the following: 1) the majority of loans made by the Fund require either balloon
      payments at maturity, or principal payments commencing shortly before the maturity date; and 2) most of
      these loans have not yet matured (the maturity date of a small number has been extended). The
      borrowers, in accordance with the repayment schedules, have made timely interest and principal
      payments and there have been a minimal amount of write-offs to date.

(f)   Interest Receivable
      Interest is accrued on the outstanding loans receivable principal balances and investments based on stated
      rates of interest.

(g)   Investments
      The Fund provides assistance to certain for-profit CDFI program awardees by purchasing non-voting
      equity and convertible debt securities and to Federal credit union awardees by purchasing certificates of
      deposit and by providing secondary deposits. Investments in the CDFI program and Federal credit union
      awardees are stated at fair value.

      Investments included as current assets represent certificates of deposit that mature within the next twelve
      months.

      In the event the Fund’s evaluation results in an adjustment to fair value, an unrealized gain or loss is
      recorded and the investment balance is adjusted accordingly.
      The Fund is restricted from owning more than 50% of the equity of awardees and from controlling their
      operations. The Fund considers convertible subordinated debentures to be equity investments because
      they exhibit sufficient characteristics of equity securities. For example, convertible subordinated
      debentures entitle the Fund to any dividends in the non-voting common stock into which it is convertible
      as if the Fund had converted the debentures into such stock prior to the declaration of the dividend.

(h)   Internal-Use Software
      Internal-use software represents the completed phases of various software placed in service pertaining to
      1) processing applications – this software automates the award application submission process; 2)
      geocoding – web-based software that geocodes addresses, map census tracts and counties, and enables
      applicants to determine the funding eligibility of census tracts and counties under CDFI’s various
      programs; and 3) the Community Investment Impact System (CIIS) – a web-based data collection system
      for CDFI’s and Community Development Entities.
      The software is amortized using the straight-line method over the estimated useful life of seven years.
      Amortization expense for the years ended September 30, 2008 and 2007 was $623,893 and $623,893,
      respectively. (Unaudited)



                                                       44
                              CDFI Fund FY 2008 Performance and Accountability Report
(i)   Awards Payable
      CDFI Program grant expense is recognized and awards payable are recorded when the fund is made
      aware, in writing, that the awardee has met the conditions required for payment and the Fund approves a
      grant disbursement to be made. BEA Program grant expense is recognized and awards payable are
      recorded when the Fund approves the BEA award to be made (i.e. at the time the funds are obligated).

      The current and long-term portions of awards payable represent amounts estimated to be paid within the
      next twelve months (current portion) and thereafter (long-term portion) based on prior award payment
      experience.

(j)   Retirement Plans
      CDFI Fund employees participate in the Civil Service Retirement System (CSRS) or the Federal
      Employees’ Retirement System (FERS). The FERS was established by the enactment of Public Law 99-
      335. Pursuant to this law, FERS and Social Security automatically cover most employees hired after
      December 31, 1983.

      Employees hired prior to January 1, 1984, were provided an opportunity to join either FERS and Social
      Security or remain in CSRS.

      For all employees, a Thrift Savings Plan (TSP) account is automatically established, and the employee
      can have up to a predetermined maximum amount withheld from their base salary, which is deposited
      into their TSP account. For FERS employees only, the Fund makes matching contributions ranging from
      1% to 4% for employees who contribute to their TSP account (there is no matching contribution for
      CSRS employees).

      In addition, CDFI Fund employees participating in CSRS have 7% of their base salary withheld which is
      contributed into a Retirement Fund. The Fund contributes the same amount into the Retirement Fund.

      FERS employees and CSRS reinstatement employees are eligible to participate in the Social Security
      program for retirement. In these instances, the Fund remits the employer’s share of the required
      contribution.

(k)   Annual, Sick, and Other Leave
      Annual leave and compensatory leave is accrued as a liability when earned by the employee, and the
      accrual is reduced as leave is taken. The balance in this accrued liability account is computed using
      current pay rates. Sick leave and other types of non-vested leave are expensed as the leave is taken.

(l)   Debt
      Debt represents borrowings payable to the Treasury Department that were made to fund direct loans made
      by the CDFI Program. Principal repayments to the Treasury Department are required to be made based
      on the collections of loans receivable.

(m)   Contingencies
      The Fund also has employment related cases (e.g., discrimination, Equal Employment Opportunity
      Commission, etc.) in which a loss may be reasonably possible, but for which a range of potential loss
      could not be determined.




                                                      45
                             CDFI Fund FY 2008 Performance and Accountability Report
      (n)   Revenue and Financing Sources
            The Fund receives the majority of its funding through appropriations from the U.S. Congress. The Fund
            receives two-year appropriations that may be used, within statutory limits, for awards and operating
            expenses. Appropriations are recognized as revenues at the time the Fund’s grants are recorded as
            expenses, and when administrative expenses and provision for bad debts covered by budgetary resources
            are incurred.

            Occasionally, the Fund receives dividends on its equity investments and may use those funds for awards
            and operating expenses.

            Additional revenue is obtained from interest received on direct loans to the public and on uninvested
            funds held by the Treasury Department.

      (o)   Tax Status
            The Fund, as a government entity, is not subject to federal, state, or local income taxes and, accordingly,
            no provision for income tax is recorded.

      (p)   Use of Estimates
            The preparation of the financial statements requires management to make estimates and assumptions that
            affect the reported amounts of assets and liabilities, disclosures of contingencies at the date of the
            financial statements and the reported amounts of revenues and expenses during the period. Actual results
            could differ from these estimates.

(2)   Fund Balance with Treasury
      Fund balance with Treasury as of September 30, 2008 and 2007 consisted of the following components:
                                                                                      Unaudited
                                                                  2008                  2007

                  Available                             $        3,382,280                2,885,074
                  Obligated                                     85,664,264               54,796,049
                  Expired                                        1,363,622                1,854,644
                                                        $       90,410,166               59,535,767


      Fund balance with Treasury includes appropriated and borrowed funds available to pay liabilities and to finance
      authorized award and purchase commitments.




                                                             46
                                    CDFI Fund FY 2008 Performance and Accountability Report
(3)   Investments
      Investments relate to capital provided to CDFI Program awardees and consist of the following as of September
      30, 2008 and 2007:
                                                                                              Unaudited
                                                                              2008              2007
      Investments, at Cost
        Non-voting equity securities                                $      28,554,820         28,554,820
        Convertible debt securities                                         2,000,000          2,573,882
        Secondary capital securities                                        4,625,000          5,000,000
        Limited partnership interest                                        3,288,983          3,288,983
        Certificates of deposit                                               175,000            225,000
             Investments, at cost                                          38,643,803         39,642,685
      Reserve for unrealized losses
        Non-voting equity securities                                       (4,775,000)         (4,050,000)
        Convertible debt securities                                                —             (459,106)
        Limited partnership interest                                       (1,147,221)           (897,220)
             Total reserve for unrealized losses                           (5,922,221)         (5,406,326)

              Investments, at fair value                            $      32,721,582         34,236,359

      Non-voting equity securities consist of non-voting common stock held in for-profit CDFI Program awardees
      (preferred non-voting stock is held in two awardees).

      Convertible debt securities consist of non-interest bearing convertible subordinated debentures. As of
      September 30, 2008 and 2007, this category included one debenture of $2 million which matures January 2048
      with the option to convert into 200,000 shares of non-voting class B common stock at a $10 per share
      conversion price.

      The other convertible debt security of $573,882 included at September 30, 2007 was with a bank holding
      company. In 2008 it was determined that this investment would not be collectable and accordingly was written
      off in the current year.

      The Limited Partnership interest consists of a Class B limited partnership interest in Sustainable Jobs Fund, LP,
      an interest in Pacific Community Ventures, and three units of preferred interest in Shorebridge Capital LLC.

      Secondary capital securities consist of investments that cannot be redeemed prior to scheduled redemption
      dates.

      Certificates of deposits are investments in federal credit union awardees, and have interest rates ranging from
      0 percent to 2 percent.




                                                             47
                                    CDFI Fund FY 2008 Performance and Accountability Report
(4)   Loans Receivable
      Loans receivable are primarily from the funds provided to awardees. Receivables consisted of the
      following:
                                                                                                          Unaudited
                                                                                           2008              2007
      Balance as of beginning of year                                                  $  62,558,357        66,698,847
       Add: Loans awarded                                                                  1,096,906           995,000
       Less: Loan repayments                                                              (2,540,298)       (4,537,668)
       Less: Write off of loans                                                                  -            (597,824)
      Allowance for doubtful accounts                                                    (15,278,741)      (15,639,589)
      Loans receivable, net                                                            $ 45,836,224         46,918,766

      The changes in the allowance for doubtful accounts consisted of the
      following:

      Balance as of beginning of year                                                  $ (15,639,589)      (16,674,712)
      Net Decrease in allowance                                                              360,848           437,299
      Write off of loans                                                                         -             597,824
      Balance as of end of year                                                        $ (15,278,741)    $ (15,639,589)


      Current loans receivable as of September 30, 2008 were $4,373,080 (net of allowance of $1,457,693). Long-
      term loans receivable as of September 30, 2008 was $41,463,144 (net of allowance of $13,821,048).

      Current loans receivable as of September 30, 2007 were $2,318,400 (net of allowance of $772,800). Long-term
      loans receivable as of September 30, 2007 were $44,600,366 (net of allowance of $14,866,789). (Unaudited)

      Interest accrues on these loans in accordance with applicable awardee assistance agreements. Interest income
      for the years ended September 30, 2008 and 2007 was $1,240,463 and $1,343,199, respectively (Unaudited).
      Interest receivable for the years ended September 30, 2008 and 2007 was $339,022 and $584,834 (Unaudited),
      respectively.

(5)   Debt
      Debt consists of amounts borrowed from the U.S. Treasury Department and included the following activity for
      the years ended September 30, 2008 and 2007:
                                                                                                        Unaudited
                                                                                              2008        2007

      Beginning balance                                                          $     41,901,850       45,511,849
      New borrowings                                                                    2,864,834        1,390,524
      Repayments                                                                       (3,363,822)      (5,000,523)
                      Ending balance                                             $     41,402,862       41,901,850




                                                             48
                                    CDFI Fund FY 2008 Performance and Accountability Report
      The earliest principal repayment due date to Treasury is September 30, 2009. Current portion due to Treasury
      for the years ended September 30, 2008 and 2007, is $428,530 and $1,318,162, respectively. Principal
      payments on this debt as of September 30, 2008 are as follows:

                      Fiscal Year                                                   Principal Payments
                        2009                                                           $ 428,530
                        2010                                                            1,705,335
                        2011                                                               12,914
                        2012                                                             652,006
                        2013                                                            2,643,507
                        Thereafter                                                    35,960,570
                                                                                     $41,402,862

      During fiscal year 2008, the Fund borrowed $2,590,737 to finance current year direct loan commitments and
      subsidy reestimates and $274,097 to meet annual interest payments due to the Treasury Department, at interest
      rates ranging from 3.55% to 6.77%, depending on maturity dates or risk categories. The Fund repaid
      $3,363,822 in principal to the U.S. Treasury from collections of loans receivable. (Unaudited)

      During fiscal year 2007, the Fund borrowed $1,027,553 to finance current year direct loan commitments and
      $362,971 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
      3.55% to 6.48%, depending on maturity dates or risk categories. The Fund repaid $5,000,523 in principal to the
      U.S. Treasury from collections of loans receivable and deobligation of a previous loan obligation. (Unaudited)

      Interest paid for the years ended September 30, 2008 and 2007 was $2,222,201 and $2,344,796, respectively.
      (Unaudited)

(6)   Commitments
      (a)   Operating Leases (Unaudited)
            The Fund leases office space from the General Services Administration in the Homer Building located in
            Washington, D.C. under the terms of an operating lease (renewed in FY 2007) which expires in January
            2012. The Fund also leases equipment under the terms of an operating lease. The total operating lease
            expense was $1,283,464 and $1,365,792 for the years ended September 30, 2008 and 2007, respectively.

            Future minimum payments due under these operating leases as of September 30, 2008 were as follows:

                                                                   Minimum lease
                    Fiscal Year                                       payments
                       2009                                         $1,461,549
                       2010                                           1,458,847
                       2011                                           1,458,847
                       2012                                           1,458,847
                       2013                                              20,276
                                                                    $5,858,366

      (b)   Award and Purchase Commitments (Unaudited)
            As of September 30, 2008 and 2007, award commitments amounted to $63,510,459 and $38,304,553,
            respectively. Award commitments relate to CDFI Program and Native Initiative Program awards which
            were approved by Fund management but not disbursed as of the end of the year. These award
            commitments are not considered liabilities at year-end because the awardees have not met the conditions
            required for payment. Award commitments pertaining to the Bank Enterprise Award (BEA) Program of

                                                              49
                                     CDFI Fund FY 2008 Performance and Accountability Report
            $20,800,195 and $13,347,164 as of September 30, 2008 and 2007, respectively, are excluded from these
            amounts since they are reflected as liabilities on the Fund’s balance sheet.

            Purchase commitments of $3,900,335 and $4,353,444 as of September 30, 2008 and 2007, respectively,
            relate to the unexpired portion of contracts, and purchase orders relating to goods and services not yet
            received.

(7)   Net Position
      Net position as of September 30, 2008 and 2007 consisted of the following:
                                                                                                     Unaudited
                                                                                         2008          2007
      Unexpended appropriations:
        Unobligated available                                                 $        15,149,671      14,394,542
        Unobligated expired                                                             1,363,622       1,854,644
        Undelivered orders                                                             64,707,034      41,061,091

                      Total unexpended appropriations                                  81,220,327      57,310,277
      Cumulative results of operations                                                27,319,676       30,722,570
                                                                              $      108,540,003       88,032,847
(8)   Other Changes in Net Position (Unaudited)
      Other changes in net position for the years ended September 30, 2008 and 2007 were as follows:

                                                                                         2008          2007
      Appropriations received                                                 $         94,000,000     54,505,779
      Appropriation for Subsidy Reestimate                                               1,078,367        948,655
      Appropriation Cancelled                                                          (2,340,417)    (3,456,953)
      Appropriation Used                                                              (69,790,071)   (56,558,832)
      Downward Reestimate Adjustment                                                   (1,898,370)      (315,393)
           Total other changes in net position, net                          $          21,049,509    (4,876,744)




                                                             50
                                    CDFI Fund FY 2008 Performance and Accountability Report
(9)   Imputed Financing (Unaudited)

      Imputed financing represents specific expenses relating to the Fund paid for by another Federal organization.
      The components of imputed financing for the years ended September 30, 2008 and 2007 are as follows:
                                                                                            2008         2007

      Pension Cost (CSRS Retirement Plan)                                          $          69,674      63,497
      Pension Cost (FERS Retirement Plan)                                                         —       (3,221)
      Health Insurance (Health Benefits Program)                                             266,220     257,705
      Life Insurance (Group Life Insurance Program)                                              908         791
      Audit Fees                                                                             270,881     211,956
                       Total                                                       $         607,683     530,728

(10) Shortage of Revenue and Financing Sources Under Expenses (Unaudited)
      The shortage of revenue and financing sources under expenses for fiscal year 2008 and 2007 includes $51,900
      and $1,139,363, respectively, of grants and subsidies that were funded from the Fund’s no-year account. The
      no-year account consists of the proceeds from the redemption of investments (see note 3 for a description of the
      types of investments) as well as income received from these investments.

      Pursuant to the Fund’s authorizing legislation, the no-year account can be used to fund new awards. Unlike
      Fund awards that are made out of appropriated funds (which serve to increase grant expenses as well as
      appropriated capital used and so have no effect on the shortage of revenue and financing sources under
      expenses), awards funded from the no-year account only affect grant expenses, and so serve to increase the
      shortage of revenue and financing sources under expenses.

(11) Administrative Expenses (Unaudited)
      Administrative expenses consist of the following for the years ended September 30, 2008 and 2007:

                                                                                                 2008     2007

       Personnel compensation and benefits                                             $     6,973,567    5,819,004
       Travel                                                                                  321,673      258,618
       Rent, communications, utilities and miscellaneous charges                             1,496,774    1,603,348
       Contractual services                                                                  4,857,380    4,774,550
       Information technology systems maintenance                                              191,197      490,811
       Amortization                                                                            623,893      623,893
       Supplies and printing                                                                    82,253      168,697
       Other                                                                                    68,594       42,176

                        Total                                                          $    14,615,331   13,781,097




                                                                51
                                       CDFI Fund FY 2008 Performance and Accountability Report
Appendices




                                  52
         CDFI Fund FY 2008 Performance and Accountability Report
                                                           Appendix A
                                           2008 CDFI Fund Award and Allocation Activities
                        FA Awards                    TA Awards (1)                   NI Awards                     BEA Awards      Total Awards
       STATE           #          $          #             $                     #               $         #            $         #           $

     Alabama              -           $0         -                $0                   -              $0       -            $0      0             $0

      Alaska              -           $0         -                $0                  1        $564,485        -            $0      1      $564,485

      Arizona             -           $0         1        $274,409                    7     $1,600,951         -            $0      8     $1,875,360

     Arkansas             1      $96,800         -                $0                   -              $0       -            $0      1       $96,800

     California           5   $5,020,232         5      $1,035,947                    2        $224,589        4     $2,228,337    16     $8,509,105

     Colorado             1   $1,100,000         2        $696,708                     -              $0       -            $0      3     $1,796,708

    Connecticut           -           $0         -                $0                   -              $0       -            $0      0             $0

     Delaware             -           $0         -                $0                   -              $0       -            $0      0             $0

District of Columbia      1   $1,069,140         1        $595,050                     -              $0       1      $657,996      3     $2,322,186

      Florida             1   $1,000,000         1         $99,180                     -              $0       -            $0      2     $1,099,180

      Georgia             -           $0         1        $518,781                     -              $0       1      $155,081      2      $673,862

      Hawaii              -           $0         1         $77,000                     -              $0       -            $0      1       $77,000

       Idaho              1     $741,000         -                $0                   -              $0       -            $0      1      $741,000

      Illinois            2   $1,943,395         4        $983,588                     -              $0   12        $6,137,751    18     $9,064,734

      Indiana             -           $0         -                $0                   -              $0       2       $81,000      2       $81,000

       Iowa               -           $0         -                $0                   -              $0       -            $0      0             $0

      Kansas              -           $0         -                $0                   -              $0       -            $0      0             $0
                                                                       53
                                            CDFI Fund FY 2008 Performance and Accountability Report
                                                     Appendix A
                                     2008 CDFI Fund Award and Allocation Activities
                  FA Awards              TA Awards (1)                         NI Awards                     BEA Awards      Total Awards
     STATE       #          $          #       $                           #               $         #            $         #           $

  Kentucky          3   $2,642,362        -                 $0                   -              $0       6      $571,666      9     $3,214,028

  Louisiana         2   $2,193,788       1           $84,291                     -              $0       2      $738,309      5     $3,016,388

    Maine           -           $0       1         $329,590                     1        $649,992        -            $0      2      $979,582

  Maryland          1   $1,000,000       1         $240,990                      -              $0       -            $0      2     $1,240,990

Massachusetts       1   $1,000,000        -                 $0                   -              $0       2      $975,000      3     $1,975,000

  Michigan          -           $0       2         $187,351                     1        $147,885        1        $6,000      4      $341,236

  Minnesota         2   $1,717,060       2         $684,711                     1          $93,899       3     $1,887,399     8     $4,383,069

  Mississippi       -           $0       1           $96,876                     -              $0       -            $0      1       $96,876

   Missouri         -           $0       1         $111,324                      -              $0       3      $795,000      4      $906,324

   Montana          1   $1,090,345       3         $713,151                     2        $198,180        -            $0      6     $2,001,676

  Nebraska          -           $0       1         $590,785                      -              $0       -            $0      1      $590,785

   Nevada           -           $0        -                 $0                   -              $0       -            $0      0             $0

New Hampshire       1   $1,000,000        -                 $0                   -              $0       -            $0      1     $1,000,000

 New Jersey         1   $1,000,000        -                 $0                   -              $0       1      $675,000      2     $1,675,000

 New Mexico         2   $2,124,511       2         $324,596                     2        $287,699        -            $0      6     $2,736,806

  New York          3   $3,000,000       1         $100,000                      -              $0       3     $1,665,000     7     $4,765,000

North Carolina      2   $2,000,000       3         $748,642                     1        $557,250        2      $114,000      8     $3,419,892

                                                                 54
                                      CDFI Fund FY 2008 Performance and Accountability Report
                                                          Appendix A
                                          2008 CDFI Fund Award and Allocation Activities
                       FA Awards              TA Awards (1)                         NI Awards                     BEA Awards      Total Awards
      STATE           #          $          #       $                           #               $         #            $         #           $

  North Dakota           -           $0        -                 $0                  2        $184,181        -            $0      2      $184,181

      Ohio               1   $1,032,629       1         $481,299                      -              $0       -            $0      2     $1,513,928

   Oklahoma              1   $1,065,690       1         $599,550                     2     $1,268,157         1       $36,000      5     $2,969,397

     Oregon              -           $0       1           $99,751                    1        $122,561        1      $675,000      3      $897,312

  Pennsylvania           3   $3,076,391       1         $100,000                      -              $0       -            $0      4     $3,176,391

  Puerto Rico            -           $0       1           $75,647                     -              $0       -            $0      1       $75,647

  Rhode Island           -           $0        -                 $0                   -              $0       -            $0      0             $0

 South Carolina          -           $0       1           $99,738                     -              $0       2      $214,400      3      $314,138

 South Dakota            1   $1,094,609        -                 $0                  3     $1,288,420         -            $0      4     $2,383,029

   Tennessee             1   $1,098,178        -                 $0                   -              $0       2      $463,962      3     $1,562,140

     Texas               2   $2,082,797       1         $580,000                      -              $0       -            $0      3     $2,662,797

      Utah               -           $0        -                 $0                   -              $0       -            $0      0             $0

U.S. Virgin Islands      -           $0        -                 $0                   -              $0       -            $0      0             $0

    Vermont              -           $0        -                 $0                   -              $0       -            $0      0             $0

    Virginia             1   $1,073,985       1         $299,986                      -              $0       -            $0      2     $1,373,971

  Washington             1   $1,065,000       1           $99,408                     -              $0       1      $675,000      3     $1,839,408

  West Virginia          -           $0        -              $0                      -             $0        -             $0     0             $0
   Wisconsin             2   $1,825,472                 $100,000                              $388,747              $1,350,000     7     $3,664,219
                                                                      55
                                           CDFI Fund FY 2008 Performance and Accountability Report
                                                                               Appendix A
                                                               2008 CDFI Fund Award and Allocation Activities
                                     FA Awards                           TA Awards (1)                      NI Awards                          BEA Awards      Total Awards
        STATE                       #          $                     #         $                        #               $              #            $         #           $
                                                                       1                                     2                             2

     Wyoming                               -             $0              -               $0                  1        $647,511             -            $0         1      $647,511


Amounts Awarded    in
FY 2008 Funding Round                 44       43,153,384           45       11,028,349                29         8,224,507           52        20,101,901   170       82,508,141


       (1) Consists of both Technical Assistance Awards and Small and Emerging CDFIs Assistance (SECA) Awards
        (2) Consists of New Markets Tax Credit Awardees headquartered in these states. Amounts shown represent amount of equity to be raised.




                                                                                              56
                                                                   CDFI Fund FY 2008 Performance and Accountability Report
                              Appendix B
                   Total Fund Awards From Inception
                               TA/SECA          Native Initiative                               Total Awards From         NMTC
  State         FA Awards       Awards            Awards (1)               BEA Awards                Inception        Allocations (2)
Alabama             $145,000       $475,500                     $0              $615,075                 $1,235,575         $40,000,000
Alaska            $7,912,500       $306,000          $1,046,080                       $0                 $9,264,580         $40,000,000
Arizona           $5,806,500       $491,867          $3,401,464                 $809,288                $10,509,119        $275,000,000
Arkansas         $10,239,300       $605,647              $70,000              $5,075,223                $15,990,170         $15,000,000
California       $59,126,712     $3,470,294             $864,067             $40,086,241               $103,547,314      $1,599,000,000
Colorado          $9,631,300     $3,409,066             $270,000              $2,116,915                $15,427,281        $327,000,000
Connecticut       $2,883,500       $863,044                     $0              $373,205                 $4,119,749                   $0
Delaware            $923,731       $122,000                     $0            $2,751,000                 $3,796,731         $50,000,000
District of
Columbia         $14,803,342     $1,353,850                    $0               $6,557,450             $22,714,642       $1,595,000,000
Florida          $17,823,800     $1,355,798                    $0               $9,491,003             $28,670,601          $15,000,000
Georgia           $3,783,900      $735,281                     $0               $6,785,864             $11,305,045         $384,000,000
Hawaii            $1,000,000      $807,825              $721,121                $1,069,199              $3,598,145          $28,000,000
Idaho             $3,534,300      $200,000                     $0                       $0              $3,734,300                   $0
Illinois         $36,276,975     $2,458,535                    $0              $41,577,477             $80,312,987         $536,300,000
Indiana           $2,308,000      $362,500                     $0               $1,609,188              $4,279,688          $93,000,000
Iowa              $3,990,000      $265,050                     $0                $508,500               $4,763,550         $259,700,000
Kansas            $1,903,000      $240,504                $25,000               $2,752,432              $4,920,936                   $0
Kentucky         $18,906,525      $811,460                     $0               $5,996,612             $25,714,597         $280,500,000
Louisiana         $6,655,603      $846,270                     $0               $2,672,418             $10,174,291       $1,381,000,000
Maine            $12,058,856      $891,951             $2,488,868               $1,481,251             $16,920,926         $481,000,000
Maryland         $16,548,360      $858,236              $176,040                $2,330,221             $19,912,857       $1,098,000,000
Massachusetts    $19,823,200     $2,981,868                    $0               $7,179,405             $29,984,473         $873,000,000
Michigan          $6,115,000      $527,404              $846,376                $1,232,686              $8,721,466         $102,000,000
Minnesota        $19,077,360     $1,745,615            $3,381,382               $5,642,000             $29,846,357         $828,000,000
Mississippi      $12,291,250      $323,376                     $0               $2,529,857             $15,144,483          $50,000,000
Missouri          $1,310,109      $259,824                     $0               $5,448,034              $7,017,967         $752,000,000
Montana           $2,537,145     $1,302,056            $1,064,540                $315,962               $5,219,703          $70,000,000
Nebraska           $350,000      $1,004,628             $265,000                   $97,832              $1,717,460          $23,000,000
Nevada                    $0      $581,452                     $0                $339,200                $920,652                    $0

                                                               57
                                      CDFI Fund FY 2008 Performance and Accountability Report
                                      Appendix B
                           Total Fund Awards From Inception
                                         TA/SECA           Native Initiative                               Total Awards From          NMTC
 State                  FA Awards         Awards             Awards (1)               BEA Awards                Inception         Allocations (2)
New Hampshire             $9,565,000          $93,425                      $0            $1,132,000                $10,790,425          $65,000,000
New Jersey               $11,226,064         $706,469                      $0            $5,262,390                $17,194,923         $393,000,000
New Mexico                $9,313,011         $489,665              $287,699                $185,705                $10,276,080         $110,000,000
New York                 $77,126,627       $7,607,670              $184,000             $51,520,326               $136,438,623       $2,734,250,000
North Carolina           $30,009,523       $2,457,205           $1,792,846              $28,694,498                $62,954,072         $800,000,000
North Dakota                $635,000          $69,520              $583,868                 $15,000                 $1,303,388                    $0
Ohio                      $9,219,620       $1,573,058                      $0            $3,755,203                $14,547,881       $1,073,000,000
Oklahoma                  $2,734,190         $599,550           $3,730,255               $2,401,680                 $9,465,675         $315,000,000
Oregon                    $5,051,250         $529,001              $122,561              $6,353,348                $12,056,160         $361,500,000
Pennsylvania             $38,699,971       $3,638,521                      $0            $1,873,327                $44,211,819         $548,500,000
Puerto Rico                 $300,000         $190,647                      $0                    $0                   $490,647                    $0
Rhode Island                $750,000         $389,900                      $0                    $0                 $1,139,900                    $0
South Carolina              $500,000         $392,338                      $0            $2,140,179                 $3,032,517         $289,000,000
South Dakota              $7,166,403         $582,000           $5,334,971                 $722,250                $13,805,624         $130,000,000
Tennessee                 $9,323,178         $150,100               $95,000              $4,319,173                $13,887,451          $35,250,000
Texas                    $17,737,267       $4,327,209                      $0           $15,142,992                $37,207,468          $62,000,000
Utah                      $2,000,000         $392,500              $353,000                $120,000                 $2,865,500         $100,000,000
U.S. Virgin Islands         $770,000               $0                      $0                    $0                   $770,000                    $0
Vermont                   $9,570,549         $490,055                      $0                    $0                $10,060,604           $2,000,000
Virginia                  $5,294,385       $1,523,076                      $0               $23,000                 $6,840,461         $296,000,000
Washington                $8,651,250       $1,081,939           $1,726,800               $3,080,991                $14,540,980         $155,000,000
West Virginia             $2,439,000         $331,768                      $0                    $0                 $2,770,768           $4,000,000
Wisconsin                $11,456,986       $1,079,103           $1,574,343               $5,116,435                $19,226,867         $831,000,000
Wyoming                           $0               $0           $1,264,364                       $0                 $1,264,364                    $0

     TOTALS           $567,304,542      $58,351,620          $31,669,645             $289,302,035              $946,627,842      $19,500,000,000
(1) Consists of awards made under all Native American Programs.
(2) Consists of New Markets Tax Credit (NMTC) allocatees headquarted in these states. Amounts shown
represents amount of equity supported by tax credits.

                                                                          58
                                                 CDFI Fund FY 2008 Performance and Accountability Report
     Appendix C
 GLOSSARY OF TERMS

ALLOCATION (OF TAX CREDITS)                                 BEA Program awardees can also provide
                                                            financial assistance to CDFIs through grants,
Through the New Markets Tax Credit                          stock purchases, loans, deposits, and other
Program, the CDFI Fund provides a                           forms of financial and technical assistance.
Community Development Entity with the                       In general, an award is made based on the
authority to sell tax credits to investors in               lender’s success in certain BEA Program-
exchange for an investment in the CDE.                      qualified activities that were projected in the
                                                            application for BEA CDFI Funds. The BEA
BANK                                                        Program regulations are found at 12 CFR
                                                            Part 1806.
Any organization engaged in any or all of
the various functions of banking, i.e.,                     COMMUNITY DEVELOPMENT
receiving, collecting, transferring, paying,                ENTITY (CDE)
lending, investing, dealing, exchanging,
and servicing (safe deposit, custodianship,                 Through the New Markets Tax Credit
agency, trusteeship) money and claims to                    Program, the CDFI Fund certifies an entity
money       both      domestically      and                 as a CDE if it is a duly organized entity that
internationally.                                            is treated as a domestic corporation or
                                                            partnership for federal income tax purposes
In its more specific sense, the term bank                   and that (a) has a primary mission of
refers to institutions providing deposit                    serving, or providing investment capital for,
facilities for the general public, including                Low-Income Communities or Low-Income
insured depository institutions. Banking                    Persons; and (b) maintains accountability to
institutions may be classified into two                     residents of Low-Income Communities
broad groups: (1) commercial banks and                      through their representation on any
their      central    banks;     and     (2)                governing board of the entity.
noncommercial bank institutions. Included
in the latter group are such institutions as                COMMUNITY DEVELOPMENT
savings and loan associations, mutual                       FINANCIAL
savings banks, and credit unions. These                     INSTITUTION (CDFI)
institutions are often referred to as thrift
institutions, although commercial banks                     Community        Development         Financial
also provide savings and time deposit                       Institution – a nongovernmental entity that
accounts.                                                   meets the following eligibility criteria and is
                                                            certified by the CDFI Fund as such:
BANK ENTERPRISE
AWARD (BEA) PROGRAM                                         1. Has a primary mission of promoting
                                                               community development;
Through the Bank Enterprise Award (BEA)                     2. Serves an eligible investment area or
Program, the CDFI Fund provides awards to                      targeted population;
insured depository institutions that increase               3. Has a predominant business activity of
their level of activities in the form of loans,                providing Financial Products, loans or
investments, services, and technical                           certain equity investments;
assistance within distressed communities.                   4. In conjunction with its loans or
                                                               development investments, provides
                                                               development activities and services that
                                                               promote      community      development

                                                  59
                         CDFI Fund FY 2008 Performance and Accountability Report
   (ex. financial management technical                      CDFI Fund issues a Notice of Awards
   assistance,    financial    or    credit                 Availability (NOFA).
   counseling); and
5. Maintains accountability to residents of                 NATIVE AMERICAN CDFI
   the investment area or targeted                          ASSISTANCE (NACA) PROGRAM
   population through representation on its
   governing board or otherwise.                            Through the Native American CDFI
                                                            Assistance (NACA) Program, introduced in
Additional eligibility criteria apply if the                FY 2004, the CDFI Fund provides Financial
entity is a depository institution holding                  Assistance awards to eligible Native American
company or an insured depository                            CDFIs to support their financing activities, as
institution. The CDFI Fund’s requirements                   well as Technical Assistance awards to
for CDFI certification and eligibility are                  existing   Native     CDFIs     and     Native
found at 12 CFR 1805.200.                                   organizations seeking to become or create a
                                                            CDFI.
COMMUNITY DEVELOPMENT
FINANCIAL INSTITUTIONS (CDFI)                               A Native American CDFI is defined as a
CDFI FUND                                                   CDFI with greater than 50 percent of its
                                                            activities directed to Native American
A government corporation within the                         Communities.     In FY 2005, the NACA
Department of the Treasury, created to                      Program replaced the NACD and NATA
promote economic revitalization and                         Programs.
community        development         through
investment in and assistance to CDFIs,                      NATIVE AMERICAN CDFI
including enhancing their liquidity. It was                 DEVELOPMENT (NACD) PROGRAM
created by Congress and has the duties
and responsibilities specified in the Riegle                Replaced by the NACA Program in FY 2005,
Community Development and Regulatory                        the Native American CDFI Development
Improvement Act of 1994.                                    (NACD) Program provided Technical
                                                            Assistance      grants    to     “sponsoring
COMMUNITY INVESTMENT                                        organizations,” such as Tribes or entities
IMPACT SYSTEM (CIIS)                                        primarily     serving   Native     American
                                                            Communities, to help create Native American
CIIS is a web-based system managed by                       CDFIs.
the CDFI Fund that collects and stores
institution-level and transaction-level data                NATIVE AMERICAN TECHNICAL
from CDFIs and CDEs.                                        ASSISTANCE (NATA) COMPONENT

EQUITY                                                      Replaced by the NACA Program in FY
                                                            2005, the Native American Technical
The raising of capital by a corporation issuing             Assistance (NATA) Component was similar
or selling its stock (in contrast with “debt,”              to the NACD Program, the difference being
which is the raising of capital by issuing bonds            that the NATA Component was limited to
or borrowing money).                                        CDFIs and entities proposing to become
                                                            CDFIs. NATA grants were provided as part
CDFI FUNDING ROUND                                          of the Technical Assistance Component of
                                                            the CDFI Program.
Each CDFI Fund application and award is
identified with a CDFI Funding round that
corresponds to the fiscal year for which the


                                                  60
                         CDFI Fund FY 2008 Performance and Accountability Report
NEW MARKETS TAX CREDIT                                      UNDERSERVED COMMUNITY
(NMTC) PROGRAM
                                                            An Underserved Community may include
Through the New Markets Tax Credit                          the following: 1) An Investment Area under
(NMTC) Program, the CDFI Fund provides                      the CDFI Program; 2) A Targeted
allocations of tax credits to qualified                     Population under the CDFI Program;
Community Development Entities (CDEs).                      3) A Low-Income Community under the
The CDEs in turn provide tax credits to                     NMTC Program; and/or 4) A Distressed
private sector investors in exchange for their              Community under the BEA Program. Many
investment dollars; investment proceeds                     Native American Communities also qualify
received by the CDEs are be used to make                    as Underserved Communities.
loans and equity investments in low-income
communities.                                                “Native American Communities” are
                                                            defined as any Native American, Alaska
QUALIFIED EQUITY INVESTMENT                                 Native or Native Hawaiian populations,
(QEI)                                                       lands or Census-equivalent entities, with the
                                                            exception of State or Tribal Designated
An investment in a CDE through the NMTC                     Statistical Areas.
Program meeting the following criteria: the
investment proceeds are used by the CDE to
make Qualified Low-Income Community
Investments (QLICIs), the CDE designates
the investment as a QEI, and the investment
is made by the CDE within 5 years from the
date of its NMTC allocation.

QUALIFIED LOW-INCOME
COMMUNITY
INVESTMENT (QLICI)

1) An investment made by a CDE in, or loan
to, any qualified active low-income
community business; 2) the purchase from a
CDE of any such loan; 3) financial
counseling and other services to businesses
in,     and     residents of,   low-income
communities; and 4) any equity investment
in, or loan to, any CDE.

TECHNICAL ASSISTANCE

Activities that enhance the capacity of an
organization to carry out its business and
purpose, such as training of management
and other personnel; developing programs
and loan or investment loan products;
improving financial management and
internal operations; and enhancing an
organization’s community impact.



                                                  61
                         CDFI Fund FY 2008 Performance and Accountability Report
